<html>
<title> - IS MY DATA ON HEALTHCARE.GOV SECURE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                             IS MY DATA ON
                         HEALTHCARE.GOV SECURE?

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2013

                               __________

                           Serial No. 113-55

                               __________

 Printed for the use of the Committee on Science, Space, and Technology







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov





                                   _____

                         U.S. GOVERNMENT PRINTING OFFICE 

86-893PDF                      WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
CHRIS COLLINS, New York

























                            C O N T E N T S

                           November 19, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     6
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

                               Witnesses:

Mr. Morgan Wright, Chief Executive Officer, Crowd Sourced 
  Investigations, LLC
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Fred Chang, Bobby B. Lyle Centennial Distinguished Chair in 
  Cyber Security, Southern Methodist University
    Oral Statement...............................................    25
    Written Statement............................................    27

Dr. Avi Rubin, Director, Health and Medical Security Laboratory 
  Technical Director, Information Security Institute, Johns 
  Hopkins University (JHU)
    Oral Statement...............................................    35
    Written Statement............................................    37

Mr. David Kennedy, Chief Executive Officer, TrustedSEC, LLC
    Oral Statement...............................................    41
    Written Statement............................................    44

Discussion.......................................................    65

             Appendix I: Answers to Post-Hearing Questions

Mr. Morgan Wright, Chief Executive Officer, Crowd Sourced 
  Investigations, LLC............................................   104

Dr. Fred Chang, Bobby B. Lyle Centennial Distinguished Chair in 
  Cyber Security, Southern Methodist University..................   112

Dr. Avi Rubin, Director, Health and Medical Security Laboratory 
  Technical Director, Information Security Institute, Johns 
  Hopkins University (JHU).......................................   120

Mr. David Kennedy, Chief Executive Officer, TrustedSEC, LLC......   124

            Appendix II: Additional Material for the Record

Letter from the Identify Theft Resource Center submitted for the 
  record by Representative Lamar S. Smith, Chairman, Committee on 
  Science, Space, and Technology.................................   132

Centers for Medicare & Medicaid Services memorandum submitted for 
  the record by Representative Larry Bucshon, Committee on 
  Science, Space, and Technology.................................   135

 
                  IS MY DATA ON HEALTHCARE.GOV SECURE?

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Good morning to everyone. Our 
hearing today is on the subject of the security of data on the 
HealthCare.gov website. I am going to recognize myself for an 
opening statement and then the Ranking Member.
    Many Americans are beginning to experience the ill effects 
of Obamacare. That is because the President's broken promises 
are piling up. He promised that if you like your health care 
plan you can keep it. But for millions of Americans, that is 
not true. He said that the law would make health insurance more 
affordable. But across the country, Americans are seeing their 
premiums go up, not down. And when launching HealthCare.gov, 
the Obama Administration said that the website was safe, secure 
and open for business. We now know that isn't true either.
    The data obtained by HealthCare.gov is one of the largest 
collections of personal information ever assembled. It links 
information between seven different Federal agencies and state 
agencies and government contractors. The website requires users 
to provide personal information like birth dates, Social 
Security numbers and household incomes in order to obtain 
information about potential health coverage. But security 
experts have expressed concern about flaws in the site that put 
this personal data at risk and subject users to the threat of 
identity theft.
    The Science Committee oversees the agencies responsible for 
setting privacy and security policies and standards for the 
rest of the federal government, the White House Office of 
Science and Technology Policy and the National Institute for 
Standards and Technology. The Obama Administration has a 
responsibility to ensure that the personal and financial data 
collected by the government is secure. Unfortunately, in their 
haste to launch the HealthCare.gov website, it appears the 
Administration cut corners that leaves the site open to hackers 
and other online criminals. So the question for today's hearing 
is: Can Americans trust the federal government with their 
personal information on the HealthCare.gov website?
    Today, we are going to hear from witnesses from outside the 
government who are experts in cybersecurity and hacking 
websites. Our witnesses will provide their professional 
assessment of the vulnerabilities that underlie HealthCare.gov. 
Several vulnerabilities have already been identified, and we 
know of at least 16 attempts to hack into the system. And I 
heard this morning that there were another 50. But we can 
assume that many more security breaches have not been reported.
    Here are some real-life examples. Mr. Thomas Dougall of 
South Carolina received a surprise phone call from a stranger 
one Friday evening explaining that he had just downloaded a 
letter off the HealthCare.gov website containing Dougall's 
personal information. And when Lisa Martinson of Missouri 
called HealthCare.gov's customer service after forgetting her 
password, she was told three different people were given access 
to her account, address and Social Security number.
    Also, it turns out that Federal employees called navigators 
who help users apply for insurance on the HealthCare.gov 
website have not received background checks yet they are able 
to access the personal information of thousands of people.
    Many Americans have been the victims of identity theft by 
computer hackers. Identity theft jeopardizes credit ratings and 
personal finances. The massive amount of personal information 
collected by the HealthCare.gov website creates a tempting 
target for scam artists. These threats to Americans' well-being 
and financial security should make us question the future of 
Obamacare. Perhaps it is time to take Obamacare off of life 
support.
    Americans deserve a healthcare system that works and that 
they can trust. Obamacare is no cure.
    [The prepared statement of Mr. Smith follows:]
             Prepared Statement of Chairman Lamar S. Smith

    Many Americans are beginning to experience the ill effects of 
Obamacare. That's because the President's broken promises are piling 
up. He promised that if you like your health care plan you can keep it. 
But for millions of Americans, that's not true.
    He said that the law would make health insurance more affordable. 
But across the country, Americans are seeing their premiums go up, not 
down. And when launching HealthCare.gov, the Obama administration said 
that the website was safe, secure and open for business. We now know 
that isn't true either.
    The data obtained by HealthCare.gov is one of the largest 
collections of personal information ever assembled. It links 
information between seven different federal agencies and state agencies 
and government contractors.
    The website requires users to provide personal information like 
birth dates, social security numbers and household incomes in order to 
obtain information about potential health coverage. But security 
experts have expressed concern about flaws in the site that put this 
personal data at risk and subject users to the threat of identity 
theft.
    The Science Committee oversees the agencies responsible for setting 
privacy and security policies and standards for the rest of the federal 
government--the White House Office of Science and Technology Policy and 
the National Institute for Standards and Technology.
    The Obama administration has a responsibility to ensure that the 
personal and financial data collected by the government is secure. 
Unfortunately, in their haste to launch the HealthCare.gov website, it 
appears the administration cut corners that leaves the site open to 
hackers and other online criminals.
    So the question for today's hearing is: Can Americans trust the 
federal government with their personal information on the 
HealthCare.gov website?
    Today, we're going to hear from witnesses from outside the 
government who are experts in cybersecurity and hacking websites. Our 
witnesses will provide their professional assessment of the 
vulnerabilities that underlie HealthCare.gov.
    Several vulnerabilities have already been identified, and we know 
of at least 16 attempts to hack into the system. And I heard this 
morning that there were another 50. But we can assume that many more 
security breaches have not been reported.
    Here are some real-life examples. Mr. Thomas Dougall of South 
Carolina received a surprise phone call from a stranger one Friday 
evening explaining that he had just downloaded a letter off the 
HealthCare.gov website containing Dougall's personal information.
    And when Lisa Martinson of Missouri called HealthCare.gov's 
customer service after forgetting her password, she was told three 
different people were given access to her account, address and social 
security number.
    Also, it turns out that federal employees--called navigators--who 
help users apply for insurance on the HealthCare.gov website have not 
received background checks. Yet they are able to access the personal 
information of thousands of people.
    Many Americans have been the victims of identity theft by computer 
hackers. Identity theft jeopardizes credit ratings and personal 
finances. The massive amount of personal information collected by the 
HealthCare.gov website creates a tempting target for scam artists.
    These threats to Americans' well-being and financial security 
should make us question the future of Obamacare. Perhaps it is time to 
take Obamacare off of life-support.
    Americans deserve a healthcare system that works and that they can 
trust. Obamacare is no cure.

    Chairman Smith. I now recognize the Ranking Member, the 
gentlewoman from Texas, Ms. Johnson, for her opening statement.
    Ms. Johnson. Good morning, and thank you very much, Mr. 
Chairman. Let me welcome our witnesses. I look forward to your 
testimony today.
    In light of the startup problems that have been reported 
with the HealthCare.gov website, problems that need to get 
fixed as quickly as possible, some Americans may be concerned 
about the security of their personal information on the 
website. I can understand such concerns, because anytime any of 
us go to the internet, we are vulnerable to those who would 
attack public and private databases to get access to our 
information. That said, we have not heard much about security 
failures at HealthCare.gov. There is one recorded instance 
where an individual was mistakenly given access to the records 
of another person. There were initially security issues with 
the password reset function. The site has also been attacked by 
hackers in a denial-of-service attack. However, my 
understanding is that these issues were quickly fixed and the 
cyber attack was successfully prevented.
    The reality is that HealthCare.gov is subject to the same 
attacks as every other website and every other internet-
accessible database. Every Member of this Committee knows that 
computer vulnerabilities are exploited every day at companies 
and government offices across the world, leading to the 
compromise of a wide range of personally sensitive information.
    I would like to draw your attention to a graphic that tries 
to illustrate major security failures of computer systems 
resulting in personal information being compromised. It is on 
the screens. As you can see, some of the biggest and most 
experienced internet firms have suffered attacks, and often the 
personal information that is accessed goes well beyond 
identifying information to include credit card and sensitive 
financial information. Governmental institutions have also seen 
materials stolen.
    Last year, Symantec's annual 2012 Cybercrime Report found 
that 556 million individuals in 24 countries, including the 
United States, were victims of one sort of consumer cyber crime 
or another. This equates to 1.5 million victims every day.
    One might conclude that the only way to avoid being 
vulnerable to such attacks is to not be connected to the 
internet at all. However, in the 21st century, that is not a 
reasonable option for most government agencies, businesses or 
individuals. So, I think we have to be realistic about the 
ability of any internet-connected database to be completely 
invulnerable to being compromised. I also think we have to be 
honest about what information actually will be available to a 
cyber attacker through HealthCare.gov. In my work as a 
psychiatric nurse, I saw how patients' medical records were 
routinely accessed by large numbers of people every day. 
Several years ago my own electronic medical records were 
breached, and I received a letter from the UT Southwestern 
Medical School Hospital in Dallas telling me that.
    So how vulnerable are medical records on HealthCare.gov? 
Some including two of the witnesses invited to testify today 
have made public claims that the website will have all kinds of 
sensitive personal medical records in its database. That is 
simply not true. HealthCare.gov will not have patient or health 
care case information about anyone. HealthCare.gov will have 
the name, date of birth, Social Security number and address of 
participants, but that information is also potentially 
available through every insurance company, bank, credit card 
company and government agency that anyone deals with, and I 
have already pointed out the data breaches that have occurred 
and are occurring in these sectors of our economy.
    So while there can be legitimate concerns about the privacy 
in the health care field, HealthCare.gov should not be the case 
of any exceptional fears in that regard. By saying that, I am 
not excusing the startup failures to implement the Affordable 
Care Act website in an effective way nor am I saying security 
failures are acceptable; they are not. I expect HHS will take 
every measure available to them to make the site secure and to 
maintain a high level of security going forward. However, I 
want everyone to keep the issues of security in perspective, 
and I hope that none of us will use this hearing to engage in 
fear-mongering in an effort to destroy participation in the 
Affordable Care Act. That would be irresponsible and, frankly, 
cruel. The Americans who most need the Affordable Care Act to 
work are those that are among the most vulnerable members of 
our society. Their personal medical data is not at risk on 
HealthCare.gov. In fact, it can be argued that this Committee's 
efforts to force sensitive information out of the EPA and 
Harvard and the American Cancer Society are a bigger threat to 
patients' privacy than HealthCare.gov.
    In closing, I hope that today's hearing will not become a 
soapbox for growing fear and confusion. Let us stay focused on 
the facts.
    With that, I again want to thank our witnesses and yield 
back the balance of my time. Thank you.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning, and welcome to our witnesses. I look forward to your 
testimony.
    In light of the startup problems that have been reported with the 
HealthCare.gov website--problems that need to get fixed as quickly as 
possible--some Americans may be concerned about the security of their 
personal information on the website. I can understand such concerns, 
because anytime any of us go on the internet, we are vulnerable to 
those who would attack public and private databases to get access to 
our information.
    That said, we have not heard much about security failures at 
HealthCare.gov. There is one recorded instance where an individual was 
mistakenly given access to the records of another person. There were 
initially security issues with the password reset function. The site 
has also been attacked by hackers in a ``denial of service'' attack. 
However, my understanding is that these issues were quickly fixed and 
the cyber-attack was successfully prevented.
    The reality is that HealthCare.gov is subject to the same attacks 
as every other website and every other internet-accessible data base. 
Every Member of this Committee knows that computer vulnerabilities are 
exploited every day at companies and government offices across the 
world, leading to the compromise of a wide range of personally 
sensitive information.
    I would like to draw your attention to a graphic that tries to 
illustrate major security failures of computer systems resulting in 
personal information being compromised.
    As you can see, some of the biggest and most experienced internet 
firms have suffered attacks--and often the personal information that is 
accessed goes well beyond identifying information to include credit 
card and sensitive financial information. Governmental institutions 
have also seen materials stolen.
    Last year, Symantec's annual 2012 Cybercrime Report, found that 556 
million individuals in 24 countries, including the United States, were 
victims of one sort of consumer cybercrime or another. This equates to 
1.5 million victims every day.
    One might conclude that the only way to avoid being vulnerable to 
such attacks is to not be connected to the internet at all. However, in 
the 21st century that is not a reasonable option for most government 
agencies, businesses or individuals. So, I think we have to be 
realistic about the ability of any internet-connected database to be 
completely invulnerable to being compromised.
    I also think we have to be honest about what information actually 
will be available to a cyber-attacker through HealthCare.gov. In my 
work as a psychiatric nurse I saw how patients' medical records were 
routinely accessed by large numbers of people every day. Several years 
ago my own electronic medical records were breached and I received a 
letter informing me about this from the hospital in Dallas.
    So how vulnerable are our medical records on HealthCare.gov? Some, 
including two of the witnesses invited to testify today, have made 
public claims that the website will have all kinds of sensitive 
personal medical records in its database. That is simply not true.
    HealthCare.gov will not have patient or healthcare case information 
about anyone. HealthCare.gov will have the name, date of birth, social 
security number and address of participants, but that information is 
also potentially available through every insurance company, bank, 
credit card company and government agency that anyone deals with, and 
I've already pointed out the data breaches that have occurred and are 
occurring in those sectors of our economy.
    So while there can be legitimate concerns about privacy in the 
health care field, HealthCare.gov should not be the cause of any 
exceptional fears in that regard. By saying that, I am not excusing the 
startup failures to implement the ACA website in an effective way, nor 
am I saying security failures are acceptable. They are not. I expect 
HHS will take every measure available to them to make the site secure 
and to maintain a high level of security going forward. However, I want 
everyone to keep the issues of security in perspective, and I hope that 
none of us will use this hearing to engage in fear-mongering in an 
effort to destroy participation in the ACA. That would be irresponsible 
and, frankly, cruel. The Americans who most need the ACA to work are 
those that are among the most vulnerable members of our society.
    Their personal medical data is not at risk on HealthCare.gov. In 
fact, it can be argued that this Committee's efforts to force sensitive 
information out of EPA, Harvard, and the American Cancer Society are a 
bigger threat to patient privacy than is HealthCare.gov.
    In closing, I hope that today's hearing will not become a soap box 
for sowing fear and confusion. Let's stay focused on the facts.
    With that, I again want to welcome our witnesses, and I yield back 
the balance of my time.

    Chairman Smith. Thank you.
    Our first witness, Mr. Morgan Wright, is the Chief 
Executive Officer of Crowd Sourced Investigations, LLC. Mr. 
Wright is a former Kansas State Trooper, officer and detective 
with almost 18 years of service. He has also worked for the 
Department of Justice, the intelligence community, the 
Department of Homeland Security, and State Department. Mr. 
Wright has taught behavioral analysis interviewing at the 
National Security Agency. He holds degrees in human resource 
management and computer information systems from Friends 
University and is a 2011 graduate of the Executive Leadership 
and Management program at the University of Notre Dame.
    Our second witness, Dr. Fred Chang, is the Bobby B. Lyle 
Endowed Centennial Distinguished Chair in Cybersecurity and 
Professor in the Department of Computer Science and Engineering 
at Southern Methodist University in Dallas, Texas. Dr. Chang 
brings us today over 30 years of public and private sector 
cybersecurity knowledge, serving as the Director of Research at 
the National Security Agency and then in an executive role at 
the SBC Communications. Dr. Chang is also a member of the Texas 
Cybersecurity Education and Economic Development Council, and 
he has taught at both the University of Texas in San Antonio 
and the University of Texas in Austin. Dr. Chang received his 
Bachelor's degree from the University of California-San Diego 
and his Master's and Ph.D. degrees from the University of 
Oregon.
    Our third witness, Dr. Avi Rubin, is a Professor of 
Computer Science at Johns Hopkins University and is the 
Technical Director of their Information Security Institute. He 
is also President and Co-founder of Independent Security 
Evaluators, a computer security consulting company. Prior to 
joining the faculty at Johns Hopkins, Dr. Rubin worked in the 
Secure Systems Research Department at AT&T Labs Research. Dr. 
Rubin received his bachelor's, Master's and Ph.D. degrees from 
the University of Michigan.
    Our final witness, Mr. David Kennedy, is the President and 
CEO of TrustedSEC, LLC. Previously Mr. Kennedy was a Chief 
Security Officer for a Fortune 1000 company located in over 77 
countries with over 18,000 employees. Mr. Kennedy is considered 
a leader in the security field. He has spoken at many 
conferences worldwide including Blackhat, Defcon, INFOSEC 
World, and the Information Security Summit, among others. Mr. 
Kennedy is the creator of several widely popular open source 
tools and has coauthored a book on internet security that was 
number one on Amazon.gov for over six months. Prior to moving 
to the private sector, Mr. Kennedy worked for the National 
Security Agency and the United States Marines in cyber warfare 
and forensics analysis. Mr. Kennedy received his Bachelor's 
degree from Malone University.
    We welcome you all, and Mr. Wright, if you will begin?

                TESTIMONY OF MR. MORGAN WRIGHT,

                    CHIEF EXECUTIVE OFFICER,

               CROWD SOURCED INVESTIGATIONS, LLC

    Mr. Wright. Thank you, Chairman Smith, Ranking Member 
Johnson and Members of the Committee, I am pleased to be here 
today. Thank you for allowing me to testify. Again, I am Morgan 
Wright.
    During my testimony, I just want to cover four major areas 
that we want to provide a high-level overview to: end-to-end 
security testing, user account creation and registration, cyber 
squatting and domain name confusion, and the insider threat.
    Just to set the stage, because we were talking about the 
size and scope of HealthCare.gov, it has been reported to have 
over 500 million lines of code. At the same time, Facebook, who 
has addressed similar privacy threats and issues, has less than 
20 million lines of code running, 772 million daily active 
users, and 1.2 billion monthly users. So, when we start looking 
at this, we start looking at the complexities and 
interdependencies of the current government sites and the 
potential for disruption, compromise of security of 
identifiable information, frauds and scams, and I think one of 
the larger issues is the insider threat. This vast amount of 
code also means that it becomes very challenging from an 
industry standpoint and best practices standpoint to give a 
certification and assurance that the site is secure, especially 
as it relates to FISMA.
    So, in the end-to-end security testing, I think one of the 
first major issues is the lack and the inability to conduct a 
complete end-to-end security assessment. Even when the 
contractors were here and testifying, they said it would take 
two months to complete this. It is essential when you are 
dealing with information that you have a top-down view, and in 
a system this complex, and having worked on major intelligence 
systems and the number of places we have to go out and touch 
data, you have to have that top-down view of security. It has 
to be something that is embedded in everything you do. There 
are five major types of data: voice, video, data, mobility, and 
then you apply security around that. That has to be put into it 
at the beginning.
    A recent news article, in fact, on October 30th in the 
Washington Post stated that--and Ranking Member Johnson, I 
believe, brought this out--the security flaw with user name and 
password. The issue that it was not identified and rectified 
until three weeks after the site was launched is an indication 
of the lack of comprehensive security controls and awareness of 
one of the basic functions HealthCare.gov is designed to 
create, which is that experience, that user account, and the 
way you secure that is with your password.
    There is a document here I would like to have put into the 
record a little bit later, but it came from Troy Trenkle, who 
was the CIO at that time of CMS. In the authorization to 
operate, one of the things he highlighted is that the Federal 
Facilitated Marketplace has an open high finding in terms of a 
security issue, but in the finding description, it says the 
threat and risk potential is limitless. These were the words 
from the authorization to operate, and the fix date, it is due 
May 31, 2014, is when this is required to be fixed. And then on 
the next page, on page 3, there is another finding, and it says 
it is a high finding but there is no finding description, it 
has all been redacted out, with a fix date of February 26, 
2015. So just from an industry perspective, being on both the 
public side and the private sector side, there has to be some 
accountability from a security standpoint, if you go out and 
you say that the threat and risk potential is limitless. There 
is a lot of accountability in the private sector from 
shareholder lawsuits, civil litigation if information like that 
is found out. And from an industry perspective, it is 
contravention of what would be considered best practices from a 
security standpoint.
    So the user account creation and registration, this was the 
second major issue because this is how people access the 
marketplace. I think one of the issues that caused some of the 
security concerns was the decision to move the submission of 
personally identifiable information before you could access the 
health care information, which meant that a user had to give, 
as was stated, name, date of birth, Social Security number, 
address and some other information in order to be able to see 
the plans. That creates an issue to where now--and I know David 
will talk about this a little bit later--is that when you start 
telling people the norm is to give your personally identifiable 
information, things that identify you before you are allowed to 
see the marketplace, it would be the equivalent of saying you 
can't go in and see a car on the car lot and kick the tires 
until you fill out a credit app and you are approved. This is 
not the way consumers do business but it creates the potential 
for fraud because now you have established a norm for 
fraudulent sites and deceptive sites to say it is a norm that 
you give us your personally identifiable information first 
before we give you access to the rest of the information.
    The third issue is about cyber squatting and domain name 
confusion, and why would this be an issue? As a former law 
enforcement officer, I can tell you it was tough enough as we 
started getting into technology to defend one site or do an 
investigation into one site. One of the articles that came out 
from the Washington Examiner quoted another cybersecurity 
expert who said that HealthCare.gov had 221 sites that were 
attempting to exploit it, and on the state exchanges, there 
were 499 sites. So from a purely law enforcement standpoint, 
you have given a lot of ground for people to use and establish 
the norm that you have to give your personally identifiable 
information first before you can access it.
    And then the very last thing is the insider threat. If you 
were to assume that HealthCare.gov had reasonable security, it 
ran reasonably well and it was within acceptable limits, the 
fact that people who access this information and access the 
information from the consumers do not undergo at least a 
background check from a position of public trust, which is 
already established by OMB standard form 85-P--it is a limited 
background check to identify people with felonies or certain 
convictions that would prohibit you from having positions 
within the government. At least a similar background check like 
that would expose deficiencies and then you apply rigorous 
auditing and accounting to that to make sure that you learn 
from those lessons and prevent future issues. So when dealing 
with the insider threat, you have to remember, trust is not a 
control and hope is not a strategy. If anything, Edward Snowden 
has taught us that no matter how much trust you give somebody, 
things can still happen.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wright follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Mr. Wright. You got a lot into 
five minutes there.
    Dr. Chang.

                  TESTIMONY OF DR. FRED CHANG,

                    BOBBY B. LYLE CENTENNIAL

             DISTINGUISHED CHAIR IN CYBER SECURITY,

                 SOUTHERN METHODIST UNIVERSITY

    Dr. Chang. Chairman Smith, Ranking Member Johnson and 
Members of the Committee, thank you for the opportunity to 
testify before you today. As Chairman Smith mentioned, my name 
is Frederick R. Chang. I am the Bobby B. Lyle Centennial 
Distinguished Chair in Cybersecurity, Professor in the Computer 
Science and Engineering Department, and Senior Fellow in the 
Tower Center for Political Studies at SMU in Dallas, Texas.
    On the backdrop of the 25th anniversary of the internet 
worm of 1988, which caused a major disruption on the internet 
in its day, let me start by saying that when considering the 
volume and sensitive data associated with HealthCare.gov, it 
would be unwise to underestimate the motivation, patience and 
creativity of today's cyber adversaries. They will find seams 
in the system. They will change the rules. They will attack you 
in ways that you won't expect, and I will return to this theme 
at the end of my oral comments.
    In my written testimony, I pointed out three types of risk 
that I see, and I will describe these briefly now. In the near 
term, I think there is a large risk from bogus websites because 
there is not one single website for people to use, there will 
be confusion, and adversaries will take advantage of this 
confusion. I believe there will be people who will launch a 
search from a search engine and they will see many choices. I 
would invite you to try that, by the way. It is pretty 
instructive. Additionally, people will make typos when entering 
a web address, and this will lead them to the wrong site or 
they will receive spam emails taking advantage of the launch of 
the new Affordable Care Act. I read one report indicating that 
over 700 fake websites had been set within the first few weeks 
of the October 1st launch. If you combine that volume with the 
fact that people may be more likely than normal to enter 
sensitive information over the web because it has to do with 
health insurance coverage, you get especially concerned about 
the potential for loss of sensitive information. It is 
difficult to know how much traffic these bogus websites will 
siphon off from authentic websites, but I saw one estimate that 
was disturbingly high.
    The second risk concerns the inherent risk in delivering 
applications over the web. There are a plethora of security 
risks facing any organization, public or private, as they 
contemplate delivery of an application over the web. The web 
was originally designed for the delivery of static read-only 
pages. Today, of course, we perform a wide array of interactive 
services over the web from buying books, videos and pet food to 
checking in for our airline flights and so much more. The 
convenience and business benefits are clear. It is really hard 
to imagine not using the web this way. Unfortunately, the 
convenience and benefits come at a price, and that price is 
security. The security risks constantly change and the top 
risks have been well chronicled in the field. I did not do any 
form of security analysis myself personally on HealthCare.gov 
but I did read some posts where people had done some 
unobtrusive passive analysis, and concerns were raised, and I 
think David is going to have some more to say about that 
shortly.
    The final risk that I mention in my written testimony was 
the risk from complexity. Many in the security field have noted 
that complexity is the enemy of security. As we ask for more 
and more functionality and capability from our software 
applications, the technologists and software developers are 
only happy to oblige. The result is more complexity including 
more defects and seams, and the attackers will try to exploit 
these. I am not an expert in health insurance exchanges but as 
I looked at the many sensitive back-end databases that are 
being accessed as a result of HealthCare.gov and thought about 
the many interactions, increased traffic load, the increased 
accesses, I believe that one can rightfully be concerned about 
the possibility of increased malevolent activity.
    My wife asked me this weekend why haven't the hackers 
already launched the big one on HealthCare.gov. She thought 
that now might be the perfect time as the website was in 
startup mode. There was a hearing by the Homeland Security 
Committee chaired by Congressman McCaul in which it was 
reported that about 16 cyber attacks had been detected against 
HealthCare.gov. I don't have any detail on those attacks, but 
regarding my wife's question about the big one, I answered it 
the same way I mentioned in my opening remarks. It would be 
unwise to underestimate our adversaries in cyberspace. They are 
smart, they are creative. They will look for seams to exploit. 
They will change the rules, and importantly, they will be 
patient.
    Thank you for your attention, and I look forward to your 
questions.
    [The prepared statement of Dr. Chang follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Dr. Chang.
    Dr. Rubin.

                  TESTIMONY OF DR. AVI RUBIN,

             DIRECTOR, HEALTH AND MEDICAL SECURITY

                 LABORATORY TECHNICAL DIRECTOR,

                INFORMATION SECURITY INSTITUTE,

                 JOHNS HOPKINS UNIVERSITY (JHU)

    Dr. Rubin. Chairman Smith, Ranking Member Johnson and 
Members of the Committee, good morning, and thank you for the 
opportunity to speak to you today. My name is Avi Rubin, and I 
am a Computer Science Professor at Johns Hopkins University. I 
am the Technical Director of the Johns Hopkins Information 
Security Institute, and I direct the Health and Medical 
Security Lab at Johns Hopkins.
    I was asked to comment to you today on general security 
issues for large web installations and specifically about 
security issues that could affect a site such as 
HealthCare.gov. As we all know from reading the press, 
HealthCare.gov got off to a rocky start, and as a software 
engineer, it is not surprising to me that this happened. When 
we think about large systems and rolling out a large software 
system, the way this is typically done by companies such as 
Google and Amazon and other companies that roll out large 
software services, they roll it out in a small way to some 
controlled number of users. They identify bugs and problems 
with the system. They fix those. They get the system stable, 
and then they scale it up to a larger number of users. Once 
again they discover that now there are all kinds of new 
problems based on the bigger scale. Why would that be? Because 
of increased communication requirements, storage and what we 
might call race conditions that happen when you have a lot more 
users than you had before. And so then someone rolling out a 
large software package will roll it out to more users, get it 
stable and keep rolling it out. It is not very common to roll 
out a huge system with a ton of users on one day, and so it 
wasn't surprising to me that there were a lot of problems when 
this was initially rolled out.
    Another thing is that when a project gets--a software 
project gets behind schedule, it is not very easy to recover 
from that. You might think well, just add more developers to 
it, but in software engineering, it is well understood that 
when you add additional programmers to a late software project, 
you often make it later. In HealthCare.gov, there are many 
interoperating components and links to many different systems 
including the IRS, the Social Security Administration, 
Department of Homeland Security, Experian, state exchanges and 
many more, and we know, as was stated earlier, that the more 
complex a system, the more vulnerabilities there will be, the 
more interfaces there are the greater likelihood of problems.
    We also know, and it has been stated, that there are great 
risks to high-profile websites. We hear breaches reported in 
the major media all the time, and the attackers are growing in 
their creativity, sophistication, talent and resources. In 
fact, just last week there was a report of a denial-of-service 
attack against HealthCare.gov.
    Maintaining a secure website is not easy, especially if it 
manages sensitive information, if it requires ongoing 
maintenance, keeping up with vendor patches, requiring highly 
skilled administrators, reporting mechanisms for reporting 
incidents, contingency plans, and the list goes on. I provided 
a list, a longer list in my written testimony. And all of that 
said, the industry--the computer industry has many success 
stores. There are large, complex websites that have no major 
breaches that I know of. Examples of these are the airline 
reservation system, which manages a very complex array of 
interdependencies, and even other sites like Orbitz and 
Travelocity, which have to tap into those airline reservation 
systems. Large social sites--Facebook and LinkedIn--they got 
attacked all of the time and yet there hasn't been, to my 
knowledge, a major compromise of these top sites that in a 
wholesale manner exposed all the private information of the 
users. We have Amazon.com, a shopping site. And while no system 
is perfect, there are best practices in the industry that work 
well for the most part. In my written testimony, I provided a 
list of best practices and recommendations for the 
HealthCare.gov website. I don't have time in my oral testimony 
to go into them but to summarize what they are about, I suggest 
a few of the security annually by outside experts, focusing on 
the interfaces among the components and across systems, 
reviewing authentication mechanisms, checking for known 
standard vulnerabilities such as SQL injection attacks, 
sanitization of user inputs, cross-site scripting, and we have 
a long list of technical things to look for.
    Data at rest should be encrypted, and the keys should be 
managed carefully just like all of those sites that I mentioned 
do. There should be mandatory incident reporting and 
contingency plans in place for every possible conceivable 
scenario. The list of recommendations that I have submitted is 
partial, but I believe that with the proper administration and 
the proper expertise, a website such as HealthCare.gov can be 
deployed in a practical manner.
    Thank you for the opportunity to speak with you today, and 
I look forward to addressing your questions in the Q&A.
    [The prepared statement of Dr. Rubin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Dr. Rubin.
    Mr. Kennedy.

                TESTIMONY OF MR. DAVID KENNEDY,

                    CHIEF EXECUTIVE OFFICER,

                        TRUSTEDSEC, LLC

    Mr. Kennedy. Thank you, Mr. Chairman and Members of the 
Committee. I appreciate your time today.
    Just to give you a brief background of my history, because 
I think it will parlay into the security issues that we 
identified with HealthCare.gov. We work with customers, large 
and small, everything from Fortune 10 to Fortune 500 or Fortune 
1000 companies all the time, and we do security assessments 
where we basically break into computer sites all the time as 
hackers. So I am a hacker on the good side, a white-hat hacker, 
in those terms. So we break into websites all the time to 
identify risks and exposure. We do it for government sites, we 
do it for private sector sites all the time. And if you look at 
the security industry, it has evolved significantly over the 
past ten years. We didn't have dedicated security conferences, 
folks that are dedicated to protecting infrastructure and 
security. Technology has advanced so far and so fast that we 
are really trying to still grasp our hands around how to 
actually do it the right way, but there are things in place to 
do it the right way and to make it right, and so there are 
companies that have successfully deployed websites without any 
major security exposures. There are websites out there that 
aren't necessarily unhackable but they are very difficult to 
break into, and we are hackers who break into them all the time 
and it becomes very difficult for us. And the purpose of 
security isn't to say hey, we are 100 percent unpenetrable all 
the time but can we detect the hackers in the very early stages 
of their lifecycle of the attack, monitor that and prevent the 
attacks from happening, and none of those are clearly being 
done on the HealthCare.gov websites and all of its sub-websites 
themselves.
    What we did--and again, this is purely from a 
reconnaissance perspective. We did not hack into the site in 
any way, shape or form. We are not authorized to hack into the 
website in any way, shape or form. But just by looking at the 
website, we can see that there is just fundamental security 
principles that are not being followed, things that are basic 
in nature that any security tester like my myself or anybody 
that we hire to test these sites would actually test for prior 
to it being released, and these are things that could actually 
compromise sensitive information for people that have 
registered for the website and actually compromise the entire 
site itself and everything around it.
    One thing to also mention is that not only is there Social 
Security numbers and information in there that was mentioned 
but also there is tight integration into state exchanges, the 
IRS, DHS and third parties like Experian. So the infrastructure 
itself has trust factors to multiple different areas that it 
pulls and feeds information from, so not only is HealthCare.gov 
at risk but you also have the infrastructure that it was built 
off of that is at risk as well, which happens to be a lot of 
those different areas.
    And so if you read the written testimony that I placed into 
there, I think we identified around 17 different direct 
exposures. A lot of those have been addressed. We reported 
them, and they have been addressed. Some of them have not been, 
and they have not been included in the report. We are very keen 
on what is called responsible disclosure and not putting 
anything at harm when we do these type of things, but there are 
critical flaws, there are critical exposures right now that are 
currently on the website that hackers could use to extract 
sensitive information. I am actually going to demonstrate one 
that has already been addressed and fixed and one that I cannot 
demonstrate because it would release sensitive information for 
U.S. citizens.
    So I would like to flip to the actual screen here, and you 
can actually see the actual attack itself, and this attack and 
this actual demonstration I am going to show was actually shown 
from an independent researcher named Gillis Jones, who 
identified this exposure on finder.HealthCare.gov. I want to 
show you different things. There is multiple sites that support 
the infrastructure. You have chat.HealthCare.gov, 
data.HealthCare.gov, finder.HealthCare.gov. These are all 
components that make up everything that is HealthCare.gov. It 
pulls from different areas, different functionality, different 
features. They all make up what we consider HealthCare.gov. In 
this case here, if you notice on the right-hand side, and it is 
a little hard to see, but what we do here is, if we can send an 
email to anybody that is registered for the website and we can 
actually extract a lot of that information. As soon as they 
click this link, and you will see here, as soon as they click 
this link, it will automatically redirect them back to a 
malicious website where they actually hack the computer, and 
this website itself is legitimate. It is finder.HealthCare.gov. 
It is the website that folks go to. It looks legitimate. It is 
registered by the government. It is a federal government site. 
And as soon as somebody goes to this website and clicks on it, 
you notice here, we are going to go to that website and we are 
going to log in to it, and as soon as you log in to it, a 
banner pops up that looks just like HealthCare.gov. We get a 
little warning here that says HealthCare.gov enrollment. Now, 
for folks that have actually been on the website, you know that 
this isn't legitimate. This doesn't necessarily happen when it 
pops up like this. The individuals going to the website 
wouldn't know this. And as soon as they click ``run,'' it 
actually hacks their entire computer. It escapes antivirus 
preventative technologies. It doesn't get detected by anything. 
And from there we can actually enable their web cam, monitor 
their web cam, listen to their microphone, steal passwords. 
Anything that they do on their computer, we now have full 
access to. And here I am on the hacker computer, and you can 
actually see--I can see the person's display here. You can see 
everything that is on it. You can actually monitor everything 
that person is doing, all the communications, and you can do 
this on a large scale because the information is readily 
available and the direct exposures that are actually on the 
website.
    And one other thing I want to show you, and this is a 
sanitized version of this, which is, there was an exposure that 
we identified at TrustedSEC, and I am not going to say which 
website is involved in it, but basically allows us to extract 
personal information of over 100,000 individuals including 
first name, last name, email addresses, their user account 
information as well as a lot of other additional information 
that we can fully extract from the website itself. I just want 
to show you an example, and this information has been sanitized 
as to not actually show individual people that have been 
exposed to this, but you notice here, you can see it up here. 
What we are going to do is we are going to track one record for 
someone that has actually registered for the site. Notice here, 
the first record that we pull back is actually an administrator 
for the website itself, so notice here, permission or 
administrator. Now I am going to extract the next 10 records in 
there. Now we have three admins, and then sanitized information 
of individuals that have registered for the website. So we can 
see here that we can extract over 100,000 individuals' 
information from the website itself.
    And one last thing--I know I am running low on time here--
is the talk that this attack has only happened 16 times and 
that the website has only been attacked 16 times is not 
possible. The attacks that happen on the internet are so 
frequently used and so frequently done that that means that 
there is not much detection capabilities on HealthCare.gov. And 
just as an example, this was recently posted yesterday. If I 
throw a semicolon into the search field, you can actually see 
the top results for the websites for semicolons, and those are 
all what we call SQL injection attacks, which means that 
hackers are continuously trying to find vulnerabilities in 
this, and the training program results on the website are 
actual attacks happening on the website itself. So the attacks 
that are happening are much larger scale right now. They are 
trying to infiltrate the website. They are trying to break into 
it, and there is definitely data on the website itself that is 
indicative of that.
    I appreciate your time. Thank you very much.
    [The prepared statement of Mr. Kennedy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Mr. Kennedy. I will recognize 
myself for five minutes to ask questions, and Mr. Wright, let 
me direct my first couple of questions to you.
    Mr. Wright. Yes, sir.
    Chairman Smith. The first is this. Does any other 
government website collect so much personal information as does 
HealthCare.gov?
    Mr. Wright. When you look at all the interdependencies like 
David laid out, when we looked around and obviously we are 
limited to what is in the open source, but there doesn't appear 
to be anything else that collects information and then uses 
that information then to check associated records in multiple 
other databases. So this becomes a central point of attack that 
if you can compromise one area, you can get into others.
    Chairman Smith. Okay. Next question is this. Is the fact 
that other websites can be hacked any justification for the 
lack of security with HealthCare.gov?
    Mr. Wright. What we would hope is that by learning from the 
known vulnerabilities out there and the other attacks that 
happen is that you would have guarded against this in the 
initial design to say we know this is going to happen, we know 
this is going to happen. The password issues and the issues 
David just showed are things that are so common, they should 
have been prevented against before the site was even launched.
    Chairman Smith. Okay. And on HealthCare.gov, do you think 
as a practical measure it can be fixed, or should we start over 
again?
    Mr. Wright. You know one of my examples, my neighbor helped 
build the Russian Embassy. I told him shame on you, the one 
that had all the bugs in it. It was easier and much safer to 
tear down the Embassy and start over again than it was to spend 
untold number of years and man-hours to remediate the problem, 
and that is just one issue. I mean, that is--you know, I am not 
a political person, we are not here to talk politics, but if 
you are asking from a technology standpoint, it would be easier 
to start over again, lay a foundation of security and start 
from the beginning because security has to be the foundation of 
this site, period.
    Chairman Smith. Thank you, Mr. Wright.
    Mr. Kennedy, let me go to your last point, and I know you 
cannot confess to having hacked HealthCare.gov yourself, that 
would be illegal, so let me just ask you if you are confident 
that HealthCare.gov has been hacked and can be hacked?
    Mr. Kennedy. Mr. Chairman, I am very confident on the 
security ramifications that we can see, basic attacks that you 
could do at the website, that it is very susceptible to attack 
and that hackers could break into it. And just as an example, I 
got an email, a random email from somebody that I have never 
met before that had about 14 to 30 different exposures on the 
HealthCare.gov website that they were posting to me personally 
on my email saying that they had contacted individuals and that 
they hadn't had any responses back for these security 
exposures, and some of them are very critical in nature. So 
these are definitely happening. Hackers are definitely after 
it. If I had to guess based on what I can see, and again, this 
is purely from a reconnaissance perspective, I don't have any 
understanding of the back-end infrastructure, but I would say 
that the website is either hacked already or will be soon.
    Chairman Smith. Okay. Thank you, Mr. Kennedy.
    Let me address my last question to Mr. Kennedy, Dr. Chang 
and Mr. Wright, and it is this: what dangers do Americans face 
if there is a security breach with HealthCare.gov? In other 
words, if HealthCare.gov is hacked, what are the real-life 
threats, dangers to the American people who have provided that 
personal information? Mr. Kennedy?
    Mr. Kennedy. Well, if you look at the type of information 
that is stored, it is not only, you know, Social Security 
numbers and data, it is everything that integrates into the 
state exchanges, the IRS, DHS, multiple other areas. There are 
some large exposures for personal information being done, 
fraudulent-type activities being performed, but I think, you 
know, if you look at what this actually is, it is one of the 
largest collections of U.S.-based data, Social Security numbers 
and everything else, that we have ever seen in history. So for 
attackers, I would go after that personally if I was a bad guy 
to try to get that information for fraudulent activity, of if 
you have ever heard the term state-sponsored or other 
government agencies going after information based on U.S.-based 
citizens, and while there is no medical records specifically in 
the website itself, the integration into all the other sites 
that they have access to, you know, we use that as a trusted 
connection in term of hacking so getting access to that trusted 
infrastructure, that the sites trust themselves, allows us to 
access into that type of information.
    Chairman Smith. Okay. Thank you, Mr. Kennedy.
    Dr. Chang?
    Dr. Chang. It is the general risk from identity theft. I 
don't know if you have talked to people who have had identity 
theft, it ends up being a major pain in the rear end to kind of 
get yourself out of that. So, extreme inconvenience and 
difficulty.
    I would also mention that from the perspective of the U.S. 
government, once identity theft happens, a bunch of other bad 
things can happen. So if you look--I mention in my testimony 
about the loss from fraudulent tax returns so as people end up 
stealing identities, they start--they end up, you know, kind of 
doing fraudulent tax returns. In 2012, I think the number was 
something like in excess of $3 billion loss in fraudulent tax 
returns, so it is just sort of an implication if identity 
theft.
    Chairman Smith. Okay. Thank you, Dr. Chang.
    And Mr. Wright.
    Mr. Wright. This becomes the largest collection of 
personally identifiable information, and as a taxpayer and a 
consumer, I don't want my government becoming the unwitting 
accomplice in the largest disclosure of personally identifiable 
information. David's point is right, and Ranking Member 
Johnson, you expressed concerns about some of the medical 
records. It is not so much the medical records, it is the fact 
that once I can obtain your identity and I can now--medical 
insurance fraud is actually a very large growing area. I can 
actually go in and receive services. My issue as a consumer is 
that if my medical records get conflated with somebody else's 
and that I am now given a diagnosis or information that says I 
have something I don't have or I don't have something I do 
have, that is one of my biggest concerns, and I think the 
threat--it is the threat of the unknown.
    Chairman Smith. Thank you, Mr. Wright, and thank you all, 
and the gentlewoman from Texas is recognized for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman, and thank 
all of you for being here.
    Mr. Kennedy, you mentioned that you were able to get 
100,000 user names from a website but you did not mention which 
site that was. Was this the HealthCare.gov?
    Mr. Kennedy. It is part of the same infrastructure. Without 
disclosing----
    Ms. Johnson. Excuse me. Was it a part of the 
HealthCare.gov?
    Mr. Kennedy. Yes.
    Ms. Johnson. So you were able to get that information from 
HealthCare.gov?
    Mr. Kennedy. It is from the infrastructure from 
HealthCare.gov. It is from--if you look at what makes up 
HealthCare.gov, if you go to www.HealthCare.gov, that is one 
site and server. But what makes up HealthCare.gov is 
chat.HealthCare.gov, finder.HealthCare.gov, 
data.HealthCare.gov. There are multiple things that feed 
information into the main website. So you have all of these 
different working parts that feed into what makes up 
HealthCare.gov and that entire infrastructure, and that is what 
we found the exposure on.
    Ms. Johnson. HealthCare.gov?
    Mr. Kennedy. On the infrastructure, on one of the sub-sites 
for HealthCare.gov.
    Ms. Johnson. But not the site of HealthCare.gov?
    Mr. Kennedy. That is correct.
    Ms. Johnson. Thank you.
    Dr. Rubin, before--I mentioned earlier before I came to 
Congress I was a nurse, and in fact, I graduated from St. 
Mary's at the University of Notre Dame over 50 years ago, and 
my master's from SMU over 30 years ago. I went there because 
there was no school of first class in Texas that I could attend 
in nursing at that time. So that tells you how old I am, which 
I am very proud of.
    But Dr. Rubin, what is your impression of the security in 
the health care industry? I have worked in the health care 
industry, and I have not found anybody seeking health care 
information to make a profit. Most of the time it is some 
scheme for people seeking information that they want to do 
that. In the Affordable Care Act, the preexisting conditions is 
no longer a factor, and so while I am not trying to make a 
judgment on the information, I am trying to understand why is 
there such an outcry at this point when medical records have 
been so available in any institution that I have worked in. 
Anyone who has any kind of hospital identification, whether it 
is a janitor or the nutritionist, a physician, a nurse can 
access a patient's chart that has everything on there that is 
going to happen or is happening to that patient while they are 
in the hospital, and that is something I know from personal 
experience. So I am trying to understand, is the health care 
industry lagging in these security measures or why--what is it 
about this non-security in the past is going to impact where we 
are now?
    Dr. Rubin. So to answer your question about where the 
health care industry stands with respect to security, I have 
done consulting in many different vertical industries--
financial, all commercial--and in the last few years I have 
been working in the health care industry doing tours of 
hospitals and doctors' offices to assess their security, and I 
have found it is actually perhaps the most far behind in terms 
of the security at hospitals, even things in the emergency room 
that surprised me and the operating room. And so to your 
question, I think that the health care IT industry needs to 
learn a lot from some of the other industries in order to bring 
its security up to par.
    Ms. Johnson. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Johnson.
    I would like to ask unanimous consent to put into the 
record a letter from the Identify Theft Resource Center, and 
they make the point, medical identity theft is one of the worst 
forms of identity theft for many reasons. For one, it is 
extremely attractive for identity thieves and hackers because 
the sale of medical identities is so lucrative. Second, medical 
identity theft is extremely difficult to mitigate, and lastly, 
medical identity theft is extremely dangerous. Without 
objection.
    [The information appears in Appendix II]
    Chairman Smith. And then the gentleman from California, Mr. 
Rohrabacher, is recognized for his----
    Ms. Johnson. Mr. Chairman, before you go to the gentleman--
--
    Chairman Smith. Before the gentleman from California is 
recognized, the gentleman from Texas, Ms. Johnson.
    Ms. Johnson. Woman. I just wanted some clarification. Do 
they talk about the profitability sources in that letter?
    Chairman Smith. If you are asking about the letter that we 
just put in the record, I will give you a copy right there.
    Ms. Johnson. Okay, because I am trying to figure out the 
value to anyone to access medical records, and I think this--
did you say it spoke to it?
    Chairman Smith. Yes. The gentleman from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    This has been a little bit overwhelming. Are you gentlemen 
saying that basically the American people are being put at risk 
by this incredible effort that our government is making in 
order to set up a health care system that will serve the 
people, that instead we are ending up putting them at risk?
    Mr. Wright. Let me take the first pass at that, sir. Back 
in February 7th of 2000, I was leading the computer emergency 
response team for SCIC, and we had financial services client, 
government clients. That date is significant because that was 
the first distributed denial-of-service attack ever launched 
nationwide. It took down Amazon, Yahoo, CNN. And one of the 
things we saw is, things don't happen on the first day. You 
have to build up the critical mass. The issue with 
HealthCare.gov is, you will not see the attacks in the first 
day as a detective. Nobody ever robbed a bank while it was 
being built. They wait until it was built, it had the money in 
there. What I am saying here is that yes, I mean, you are 
looking at the first 30, 45 days. That is not the issue. I am 
more concerned six months out at this information comes----
    Mr. Rohrabacher. We are predicting that the American 
people, unless there is a dramatic change in the way things are 
being put together, that families throughout this country will 
face huge problems, their bank accounts will be hacked into or 
maybe there will be false information put into their health 
care so if they go to the hospital, they won't get the right 
kind of medicine. Is this what we are talking about?
    Mr. Kennedy. I can kind of speak to that. From a security 
perspective, there are things that we can see that are patterns 
of inconsistencies around security, and if you could see those 
patterns and you look at those patterns, you can see that there 
is not a lot of security built into this site, at least from 
what we can see from a 10,000-foot view, again, without 
actually attacking the site itself. And there are things that 
we can do to prevent those, and if you look at how a website is 
supposed to be developed, it is supposed to be developed from 
the ground up with security integrated and being an integral 
part of that portion so you can protect sensitive data, U.S. 
citizen-based data, and it does not appear to be done, from 
what we can see and what we are finding as far as independent 
researchers and the information that is ready available out 
there.
    Mr. Rohrabacher. So when we are talking about hackers and 
you say you are a hacker, and we are talking about the American 
people being vulnerable, are we making the American people 
vulnerable to people, hackers from Russia or China or overseas?
    Mr. Kennedy. Absolutely. There is, you know, really 
different types if criteria of hackers. You have your hacker 
that you picture, you know, probably me 20 years ago in my 
basement, right, you know, hacking away or whatever. Then you 
have the criteria of more of organized crime, which is more on 
the monetary fraud perspective of just purely financial-type 
gain. And then you have obviously the state-sponsored element, 
which is more of like the folks that you see from governments 
of other areas, and they are looking for things like high-
impact vulnerabilities so they can actually exploit a system, 
get access to the data behind it and use that information 
against us.
    Mr. Rohrabacher. But we are facilitating some of the worst 
scum in the world, not even in our own country, which we have 
enough problems of criminals in our own country, but the worst 
type of elements throughout the world to actually now get at 
our citizens?
    Mr. Kennedy. Objectively, we should have had a lot of 
defensive capabilities put into this site well ahead of it 
being released. There is technologies, there is detection 
capabilities, there is coding that we can do to make the site 
secure.
    Mr. Rohrabacher. And it should have happened before we----
    Mr. Wright. It should have happened well before it was ever 
released, and that is what you see in commercial areas.
    Mr. Rohrabacher. Let me--I only have one minute left. 
Someone said, one of you testified, it would be better right 
now, considering there is so much vulnerability that we now are 
putting our people in that it would be better to start all over 
again and just restructure the system from zero rather than 
trying to correct the problems that are in the system now 
because it was done wrong. Do you all agree with that? Is that 
something that we have come to agreement here? Is there someone 
who disagrees with that?
    Dr. Rubin. Well, I can personally say that I haven't looked 
at the system carefully enough to make that judgment. I do 
think that we know as a computer industry how to build websites 
like this that can be more secure and meet the best practices, 
and I think that what would be necessary would be a security 
review of the system to establish whether there is a deep 
infrastructural problem with it or whether it is just----
    Mr. Rohrabacher. Okay. So you are not sure about that. The 
other witnesses would suggest that it would be better for us to 
start over with security in mind rather than trying to correct 
the problems in the current system. Is that correct?
    Mr. Kennedy. If you build a house, a foundation off of 
something that is flawed from the beginning, the foundation 
doesn't work, you know, the foundation sinks, it is crumbling, 
you can put a metal door on, you can bolt different things to 
make the house better but the foundation is still bad.
    Mr. Rohrabacher. So if we don't, Mr. Chairman, we are 
putting average American citizens, we are making them 
vulnerable to the worst godawful people in the whole world who 
are malevolent human beings who now don't have that access to 
our people. This is mind-boggling. Thank you very much, Mr. 
Chairman, for holding this hearing.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member, for holding this hearing, and thank you so much to our 
witnesses for participating in the hearing.
    Certainly since HealthCare.gov came on line, many of us 
have spoken with constituents who have had trouble navigating 
the site and some have expressed concerns of course about 
privacy on the site and further, I don't think there is a 
single Mmember who isn't somewhat frustrated about the problems 
that have plagued the rollout of the website and also the 
websites in some of our states. But frankly, the Affordable 
Care Act isn't about a website. I know I am not the only one 
who has spoken with just as many constituents whose biggest 
concern isn't the functioning of the website, it is the fact 
that they haven't been able to get health insurance or access 
health insurance or access health care, and in fact, right now 
they can go to get health insurance by calling or applying in 
person or by mail. The Affordable Care Act is designed to help 
these people who haven't had access to health care, and we 
should make that process as simple as possible, especially with 
regard to the website and make sure their personal information 
is protected.
    I want to point out that right now in the United States, 
about 83-1/2 percent of Americans e-file their taxes. Do you 
all e-file your taxes? Yes, do you e-file your taxes? So you 
all e-file your taxes? You are among the 83-1/2 percent?
    Mr. Wright. I am sorry. That is--no offense, but what we do 
and how we do it only gives information to let people--we can 
neither confirm nor deny, and there is a reason the 
intelligence community says that because they don't want to 
tell people----
    Ms. Bonamici. Understood.
    Mr. Wright. --the threat vector that you can attack me on.
    Ms. Bonamici. Well, I understand, but I just want to 
clarify that a lot of people e-file their taxes.
    So I want to also talk about the sort of conflation of 
electronic health records, which has been discussed here this 
morning, and certain detractors are suggesting that 
HealthCare.gov is sort of a clearinghouse that includes access 
to electronic medical records. So I want to get this from--let 
us start with Dr. Rubin. Does HealthCare.gov collect or store 
electronic medical records?
    Dr. Rubin. It is my understanding that it does not.
    Ms. Bonamici. Okay. And so let us talk a little bit about 
the Data Hub, because we have been talking about how through 
HealthCare.gov there is certain enrollment information that 
gets verified through Data Hub, so it is my understanding, and 
I would like, Dr. Rubin, confirmation of this, the Data Hub is 
not a database, it does not store information. Is that your 
understanding?
    Dr. Rubin. My understanding of what the Data Hub is, is 
that it is a queue of requests that are supposed to go out to 
different entities for information and so once a request gets 
processed, it is taken off of the queue and it is not stored.
    Ms. Bonamici. So the data is not stored. I just want to 
clarify that. It is used to verify information but not stored, 
it is not a database. It is also my understanding that it is 
not necessary to actually--consumers can still shop on the 
website without creating an account. It is my understanding 
that that was originally the case but now consumers can shop 
and look for plans and compare plans without creating an 
account first. Can somebody clarify that for me? Is that--has 
that been changed so that you do not have to--consumers do not 
have to set up an account?
    Mr. Wright. In my written testimony, one of the security 
issues was, is that they required you to give you personally 
identifiable information upfront and go through the 
registration process before you were given access to that 
information. However, a website called healthsherpa.com created 
by three gentlemen in two weeks did exactly what you were 
talking about, which should have been done is just puts in your 
age, your zip code and your sex and then you would be able to 
shop for plans based upon a range of options. But when I went 
through and started going through the process, it required you 
to, and to this day it requires you to give your information 
upfront.
    Ms. Bonamici. Okay. Well, we will clarify that.
    I wanted to ask Dr. Chang a question and also because I 
want to give you an opportunity to say ``Go ducks'' like your 
colleague said. In the lead-up to this hearing, we have heard 
the reports about the attacks on the website, the distributed 
denial-of-service attacks. So how would you describe those 
attacks, and how might they compromise the functionality of 
HealthCare.gov?
    Dr. Chang. Go Ducks.
    Ms. Bonamici. Thank you.
    Dr. Chang. In the case of denial-of-service attacks, what 
that would amount to is that it would essentially be an attack 
on availability; people couldn't access the site, they couldn't 
gain access to it and do the business they want to perform. I 
guess I would mention sort of more generally as we talk about 
the fact that the web is sort of this extremely powerful place, 
it is also sort of a dangerous place. I got some statistics out 
of 2012, and it basically talks about how 86 percent of 
websites have at least one serious vulnerability. The average 
website had 56 serious flaws. The organization only fixed 61 
percent of these, and it took an average of 193 days. I mean, 
so basically we have this powerful capability in which we can 
launch all these sort of wonderful things but the downside is 
that this power results in some danger.
    Ms. Bonamici. And my time is expired, but I want to thank 
you for your expertise, all of you for being here today. It 
seems like there is a lot of places where people put in their 
Social Security number and it doesn't--yes, we need to fix 
things but that happens in a lot of places now. I yield back. 
Thank you, Mr. Chairman.
    Chairman Smith. Thank you, and the former Chairman of the 
Committee, the gentleman from Texas, Mr. Hall, is recognized.
    Mr. Hall. I thank you, Mr. Chairman. I thank you for having 
such a capable Committee here, a group here, and I am really 
amazed as I read your backgrounds here, and I might ask Mr. 
Wright, when you were doing security work in Kansas, were you 
working under Governor Sebelius at that time?
    Mr. Wright. No, I was working under Governor John Carlin 
and then Governor Mike Hayden, who became, I think, a secretary 
of one of the agencies out here.
    Mr. Hall. And Dr. Chang, I am going to have some questions 
to ask you in just a minute because I am a little closer to 
you. I am in Rockwall there, not too far from--come and get 
more information from you if you don't tell me what I want to 
hear from you. I graduated from there in law school years ago. 
Both my sons graduated from law school there, and I am amazed 
at SMU now, and I can't believe that Dave Kennedy being the CEO 
of all those places is a hacker light, I would call him 
something pretty capable. And might as well touch on Dr. Rubin 
too. When you say Johns Hopkins University, you are going to 
expect some class testimony. So Mr. Chairman, you and Eddie 
Bernice got together a good group for us here, and I think 
there is a lot of information there that we can look to. You 
have already talked pretty much about the house with no 
foundation, and I think you doubt that it can be patched up, 
and I thank you all for your testimony.
    As we examine the security of the website, HealthCare.gov, 
or as we are finding out, the lack of security of this website 
is in its current form, would you agree that if a system is not 
only functioning--and that is my understanding from you. I 
think that was your testimony, was it not, that you have a bad 
basic for it. You have to go out and come in again, and that it 
is not functioning, and that is another thing wrong with the 
thrust of the health care that has been offered to the people.
    So Dr. Chang, would you agree that if a system is not only 
not functioning properly, that it is also not secure from 
possible breaches and other cyber attacks, does that give you 
some anxiety?
    Dr. Chang. Yeah, it would. You know, in medical ethics, 
they use this term ``do no harm.''
    Mr. Hall. Right.
    Dr. Chang. The exploit that David talked about is quite 
literally the website attacking the user. I mean, that is sort 
of the way to think about it. And you know, as others have 
mentioned, it is really critical that security get built in 
from the very beginning. If you are trying to add lines of code 
to a software program on a sort of fundamentally unsound base, 
that is not good. So I think you are hearing some agreement 
among the folks around the table that security needs to be 
built in from the very beginning, and to the extent it is not, 
then that is----
    Mr. Hall. Okay. How long do you think it would take to fix 
these problems and assure public confidence in the website?
    Dr. Chang. Pretty difficult to speculate. Maybe some of the 
other panelists--I would say it is maybe sort of a matter of 
months. I would be happy to----
    Mr. Wright. I think Donald Rumsfeld said it best when he 
talked about the levels of knowns. This is an unknown unknown. 
I mean, we don't know because there is no transparency. We have 
no information on the extent of the flaws. The information that 
is documented on the FISMA requirements in the authorization to 
operate have redacted information, so as practitioners, we 
actually are hamstrung to be able to give you our best advice 
because we don't have enough information to tell you we can 
give you a best guess but a best guess can't translate into a 
project plan in exact dollars.
    Mr. Hall. And when you can't believe the information a 
President of the United States gives you, you don't want to say 
which time was he lying. I would rather say which time was he 
not telling the truth, and I think that is where we are going 
to come up with all these things that are breaking down now, 
and I regret that we are trying to give them opportunities to 
correct a bad bill, a bad health bill, with additional 
information. Ought to kill it and start all over again and fix 
the foundation.
    Administrative officials have indicated that testing was 
performed on pieces of the website, just on pieces of it, but 
the entire website was not tested, and then how important, Dr. 
Chang, is testing prior to launching a website of this 
magnitude?
    Dr. Chang. Extremely important. As you heard from the 
others, this is what, you know, a professional website would 
do. They would do testing before, during and after. In fact, I 
am aware of one company in the private sector that conducts 
quarterly unscheduled penetration tests after the site has gone 
operational.
    Mr. Hall. Do you think three years provides sufficient 
time? Just yes or no.
    Dr. Chang. What, for testing?
    Mr. Hall. Yes.
    Dr. Chang. It seems reasonable.
    Mr. Kennedy. Sir, on the actual testing piece, you know, it 
is not a matter of testing it, you know, stopping the code, 
testing it, stopping the code, testing it. It should be built 
into the process. So the process itself continuously tests the 
security throughout the entire what we call the software 
development lifecycle, and then through there you have the 
security issues that are remediated prior to it. It doesn't 
hinder or stop any type of production, and a three year time 
period definitely should have been adequate enough to do the 
security testing to make sure that prior to any type of 
release, all those issues were vetted, and then from there you 
do what is called penetration testing or hacking into the site 
to make sure that you didn't miss anything important.
    Mr. Hall. I thank you. My time is up. I may want to inquire 
by mail to the four of you on some of these things. Thank you, 
Mr. Chairman.
    Chairman Smith. Thank you, Mr. Hall. The gentleman from 
Massachusetts, Mr. Kennedy, is recognized for his questions.
    Mr. Kennedy of Massachusetts. Thank you, Mr. Chairman. I 
want to thank the Ranking Member as well for holding the 
hearing, and thank each of our witnesses for your testimony.
    Just want to echo my colleague's comments and say from 
somebody from Massachusetts, obviously where we--coming from a 
state that has gone through some of these challenges but a 
state that now has nearly 100 percent of all adults covered--or 
excuse me, 100 percent of all children covered, 98 percent of 
all adults covered, where our rate of cost increase for the 
overall health care system is right in line with our gross 
state product, that for the risk pools for individuals and for 
small businesses is about 1.8 percent, at least current data 
for the year upcoming. Contrast that to about ten percent what 
it was a decade ago. I think that Massachusetts has proudly 
evidenced that if there is a collective will to get health 
care, meaningful health care reform bill passed and to continue 
to work on it, to continue to tweak it to make sure it works 
together, it can be successful. And to the extent that I am 
hearing from my colleagues today a new refrain of rather than 
just repeal but actually repeal and replace, I think we are 
finally actually getting somewhere. So thank you.
    With regards to the actual website itself, and 
unquestionably needs for improvement, and I want to thank the 
witnesses for highlighting some of them, I did have a couple of 
basic questions. First off, is it--Mr. Wright, is it clear that 
you can actually get estimates about how much you are going to 
pay for health insurance without having to put in any sort of 
personal identifying information?
    Mr. Wright. On the healthsherpa.com site, which has taken 
it directly from the government site, yes, but when I went 
through and tried it myself to get to the point to see how much 
information it would require, I couldn't get to that point 
without disclosing all of my information first.
    Mr. Kennedy of Massachusetts. So would it surprise you to 
know that in the past 5 minutes, I could log on to the 
HealthCare.gov website, put in an exchange, put in a county, 
put in no other identifying information other than age bracket 
for me and whether I wanted coverage for myself or my spouse 
and click through and get an estimate of various costs?
    Mr. Wright. No, it wouldn't surprise me. In fact, I am glad 
that they did it because it means that they learned from the 
gentleman who created healthsherpa.com.
    Mr. Kennedy of Massachusetts. Do you actually know who they 
learned from?
    Mr. Wright. No. That is the ones who originally did it, 
that showed that model how it should be done.
    Mr. Kennedy of Massachusetts. Okay. So----
    Mr. Wright. But I am glad that they did it.
    Mr. Kennedy of Massachusetts. Well, me too. Now, sir, your 
testimony--and I take it from the chairman that the focus of 
the testimony today in the hearing was, can Americans trust 
government with the information on the HealthCare.gov website, 
and Mr. Wright, the testimony that you offered basically broke 
it down into four categories: the end-to-end security testing, 
the user account creation and registration, the cyber squatting 
domain name confusion, and insider threat. Is that right, those 
four broad categories?
    Mr. Wright. Yes.
    Mr. Kennedy of Massachusetts. And so the end-to-end 
security testing, those were the overall basic security issues 
that we have--that many of the people on the panel and you 
yourself talked about today, that every major website or most 
major websites come under attack for cybersecurity threats. Is 
that right?
    Mr. Wright. Well, the need for end-to-end testing, yes, and 
every site is--you must assume every site is under attack.
    Mr. Kennedy of Massachusetts. Yes. Fair enough. That user 
account creation and registration, if my understanding of your 
testimony is correct is that your concern there is that it 
creates a new norm that could be exploited by other websites 
not pertaining to HealthCare.gov.
    Mr. Wright. When it was originally done and they required 
you to give you personally identifiable information upfront, 
that created a new norm that people would use then to exploit 
to say you must--this is the way we do it.
    Mr. Kennedy of Massachusetts. Because so many people are 
accessing health care and have signed up for HealthCare.gov 
that that many people has now created a new norm?
    Mr. Wright. I am not sure exactly your point.
    Mr. Kennedy of Massachusetts. Well, how do you create the 
new norm by----
    Mr. Wright. You establish the new normal by saying this is 
the way we do it. I mean, it could be one people that have 
registered or 50 but at some point if the government says the 
speed limit is now 65, that doesn't mean everybody starts 
traveling 65, but that starts becoming the new norm that you 
start enforcing against.
    Mr. Kennedy of Massachusetts. Okay. And we have see that 
proliferate across--you have seen that now proliferate across 
other websites and other domains, other user forums? If it is a 
new norm, that norm is something that now spreads, right?
    Mr. Wright. Well, if it is a new norm, what you do is, 
people who create deceptive websites, or what David was 
showing, is because you are used to doing that because it has 
been said that you do that on HealthCare.gov--.
    Mr. Kennedy of Massachusetts. Have you seen that yet, sir?
    Mr. Wright. Yeah, actually what David just showed.
    Mr. Kennedy of Massachusetts. Now, have you seen that 
spread across--if it is a norm, that becomes the norm, right? 
Have we seen that?
    Mr. Wright. I think we are probably getting into semantics, 
and I apologize, sir. I didn't mean to do that. When I said it 
starts becoming the new norm is, you start setting a standard 
and people start doing it. Everything starts out with a low 
level of adoption, then you get critical mass, and if they 
change it and they do that, you can actually prevent the fraud, 
which is a good thing, because you reestablish what the norm 
should be, not that you should give personally identifiable 
information upfront.
    Mr. Kennedy of Massachusetts. And I am just going to -- I 
know I am running close over time. Thank you for clarifying, 
sir.
    The last piece that I just want to touch on, I don't know 
if any of you--and I don't want to put anybody on the sot here 
but applications for a passport where you have to submit--or it 
asks for information including identifying information, proof 
of citizenship, proof of identity off a website. We haven't had 
any hearings based on the confidentiality or security of those 
issues. Is that--have any of you investigated other government 
website about the use of and the safety of classified--or of 
confidential material?
    Mr. Kennedy. And I can talk to that. One of the examples 
earlier was around the e-filing system. I have actually done 
security testing around the e-filing application part, and they 
have had security embedded into that at a very different type 
of level. There is actually state laws around the protection 
around what you have to do around Social Security numbers, and 
in the private sector there is what is called HIPAA around 
protecting against, you know, patient health care information. 
So there are laws and regulations around the protections of 
those, and I have done actual security testing on those in the 
past and they have done pretty well.
    Mr. Kennedy of Massachusetts. And you think HIPAA--but we 
heard a lot of concerns about confidential patient information 
and the mix-up of electronical medical records--or electronic 
medical records, HIPAA.
    Mr. Kennedy. So there is a difference between compliance 
and what we call proactive security. Compliance doesn't mean 
security in any way shape or form but what HIPAA was designed 
to do was to put protections in place around patient health 
care information, or PHI, and while that is not necessarily 
successful across 100 percent of the board, I have run into 
some outstanding medical institutions that have very good 
security to protect patient health care information and take it 
very seriously, just a matter of negligence versus folks that 
go on the proactive side to actually fix the issues that they 
identify.
    Chairman Smith. Thank you, Mr. Kennedy.
    Mr. Kennedy. Mr. Chairman, thank you for the extra time.
    Chairman Smith. The gentleman from Texas, Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    I think we need to make sure we are clear here because even 
when people call in to HealthCare.gov, they are talking to 
individuals, but they are putting that data into the very same 
system that the web page is putting that and so basically all 
of that data is going into a central repository, and a number 
of these people that are helping put this data into the system 
are referred to as, I believe, navigators, and I think Ms. 
Sebelius stated in a recent hearing that these people do not 
undergo a federal background check, and Dr. Chang, as someone 
that was once the Director of Research at NSA, what are some of 
the risks of allowing people that have not had background 
checks run on them to have access to this kind of data?
    Dr. Chang. Yeah, so you would basically be worried about 
the issues of identity theft. I once went to a restaurant and 
gave the server my credit card. They wrote down my credit card 
and racked up some charges. So the worry would be to the extent 
that these folks that haven't had background checks--and 
honestly, I don't know how severe the backgrounds might be but 
if they haven't had background checks, who knows what they 
could do with the information. It is valuable information, 
there is a lot of it, and, you know, maybe they could do 
malevolent things.
    Mr. Neugebauer. Mr. Wright, do you want to comment on that?
    Mr. Wright. Yes, sir. I actually conducted behavior 
analysis training at the National Security Agency. We had the 
damage assessments agents in from significant espionage cases 
like Earl Edwin Pitts from the FBI, Aldridge Ames and Nicholson 
from the CIA, and one thing over and over again was, you can do 
a background check, you can give a high level of trust, and it 
still doesn't mean, as we know from Robert Hanson, for example, 
people still don't turn bad, but from my experience and 
training and when we have gone and looked at the fact that you 
don't do at least a cursory background check and eliminate the 
obvious threats from the beginning means that convicted felons, 
people with other--you would no more want a convicted felon 
than somebody with a conviction for child pornography having 
access to certain government systems. There is the SF-85-P from 
OMB establishes at least a baseline of information you can use 
to weed out candidates who should be disqualified from holding 
a position of public trust. The question is, would you define a 
navigator from a policy standpoint as a position of public 
trust, and if you do, the procedures are already in place to 
assess those backgrounds.
    Mr. Neugebauer. Mr. Wright, when I was reading your 
testimony, and I think you alluded to in your oral testimony, 
about the fact that the HealthCare.gov has over five million 
lines of code----
    Mr. Wright. Five hundred million.
    Mr. Neugebauer. Five hundred million? Yeah, it's even worse 
than stated. And that the Windows has 50 or 80 million lines of 
code, I think one of the questions that I have is also about 
security, but the American taxpayers, I think are going to pay 
like $680 million for the system, or that is what is reported. 
So the question is, you know, we have got a lot of e-commerce 
sites out there that have been in place for a very long period 
of time, why would the government choose to try to build 
something from scratch that already is pretty readily available 
out there? Is there something about the way that HealthCare.gov 
operates that is different from the rest of the world operates 
or should be different from the rest of the world?
    Mr. Wright. Yes, there is, and it is the issue of 
accountability. If you are in the private sector and you have 
shareholders and you screw up, you are gone. I mean, there is 
accountability. There is also exposure to civil litigation. I 
can tell you, I worked at Cisco for six years, great company. 
We worked with a lot of countries and places. But the legal 
ramifications of doing something wrong went up and down the 
chain of command. Here you don't have the same. The government 
has a lot of immunity from liability. It should have gone out 
to the private sector to do this because what you have done -- 
my example was, can you imagine if the government put out a 
request for proposal to build Facebook, what that would look 
like. Facebook was built with 20 million lines of code and 
serves 1.2 billion people. This has 500 million lines of code 
and it has been challenged to provide the security and the 
functionality that you need. So yes, looking from the private 
sector, this actually would require a reinvention in terms of 
how you go out for proposals as opposed to an IDIQ contract, 
which this was done under. It is actually to go out and say, 
give us your best shot, we have a statement of objectives, here 
is what we would like to achieve, now innovate and build 
towards that. Your costs would have gone down. The complexity 
of the code would have gone down, that Dr. Chang talked about.
    Mr. Neugebauer. Thank you.
    Mr. Kennedy, so the complexity of this program means that 
some of the proven techniques that have been used out there in 
the private sector that have run through these security checks 
might not have been incorporated into this code and so 
basically when you have this much new code, does that increase 
the vulnerability of the system?
    Mr. Kennedy. It does significantly and if you look at 
Microsoft, everybody here has heard of Microsoft before, 
Windows, Microsoft Windows. You know, you hit the 50- to 80-
million mark for lines of code. Microsoft still continues to 
this day to have security flaws and exposures, albeit 
significantly less because they have done formal testing. They 
have a great security program that actually looks at a lot of 
these. But in its very early stages, it was definitely one of 
the most hacked operating systems that there was out there with 
hackers basically breaching with what call zero days or 
exploits every single day. And so when you have 500 million 
lines of code, which is six times greater than the code of 
Microsoft, you have significant problems with manageability of 
code, the complexity of the code and the introduction of 
exposures that are out there as far as exploits and attackers. 
So it is very difficult to manage something like that. It is 
very difficult to fix something like that as well as even be 
able to address some of the security concerns you have in a 
short period of time.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Neugebauer. The gentleman 
from California, Dr. Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman. Thank you, witnesses, 
for being here.
    We never let politics get in the way of addressing health 
care, addressing getting access to care. This body never would 
let that happen. So since we are going to work together as 
Democrats and Republicans to make sure we are able to get a 
system up and running, my goal is not to defend the 
HealthCare.gov website. Obviously this was a botched rollout. 
It is to take advantage of the fact that we have some security 
experts here, to take advantage of the fact that we have got to 
fix and make this better. My colleague from Massachusetts, Mr. 
Kennedy, already identified one way that we have made this fix 
and made it better in terms of the sequencing, right? So when I 
have gone to my home state exchange, Covered California, it 
doesn't ask for any personal information. It allows me to just 
put basic information in, zip code, basic income level and then 
it gives me an estimate. It sounds like HealthCare.gov fixed 
that. That is a good thing. It makes it more secure, right? 
Everyone would agree with that?
    Dr. Chang, you mentioned that 86 percent of all websites 
have at least one vulnerability. We are not here suggesting 
that we shut down 86 percent of the internet. What we are 
suggesting is we should be vigilant and address those 
vulnerabilities and we should do everything we can to the 
extent possible to make things secure. Again, I think we all 
agree on that.
    Mr. Wright has mentioned four things. We just talked about 
sequencing. So this change in sequencing makes us better. Cyber 
squatting, domain name threats. I know in my state last week, 
the Attorney General shut down, I believe, 10 websites that 
were posing as Covered California look-alikes. We should be 
able to address that as well if we are vigilant about that. I 
would say we should just have someone looking at websites every 
day saying hey, these are fake website, let us go after them, 
let us shut them down. That is something we should be able to 
address, wouldn't you agree?
    Mr. Kennedy. I think you can definitely address a lot of 
those issues from identifying what sites are trying to 
impersonate as the website itself. There is definitely 
proactive steps you can take to minimize the risk to the 
website itself, absolutely.
    Mr. Bera. So all of you would recommend that that is 
something worth doing?
    Mr. Kennedy. Absolutely.
    Mr. Bera. So we should make that recommendation and get on 
that right away and make sure that no one is going to a fake 
website that looks like HealthCare.gov and putting information 
in. So that is a recommendation I think we can make as a 
Committee to immediately get on and it is something that should 
be done today, if in fact it is not being done.
    Mr. Wright. Dr. Bera, in fact, on the front page of the 
site, one of the things I suggest is exactly that. It would be 
nice for people to know what is an authentic account. Like when 
you get your banks, they say we will not ask for your password, 
we will not do this, just getting information like that from 
the government itself saying these are things we do and these 
are things we do not do and these are not authorized site, or 
here is the only sites that count would actually go a long way 
to preventing that fraud.
    Mr. Bera. So we could certainly make that recommendation.
    In my State of California, it is my understanding that all 
the navigators have to go through a background check, so I 
would ask the Committee to verify which states are making 
navigators go through background checks and which ones aren't. 
It is my understanding that because of the government shutdown, 
part of our challenge in California is that there is a backlog 
of navigators at the Justice Department going through the 
background checks. So that is an easy recommendation that we 
could make broadly as well, that at a minimum, the navigators 
should go through at least a basic background check. I would 
ask the Committee to verify which states are not doing 
navigator background checks versus which ones are. I don't 
think we can make a blanket statement that says navigators 
aren't going through background checks because, again, my 
understanding is that my home State of California, they are 
going through background checks. So again, easy recommendation, 
easy fix, an easy way for us to make sure that we are not 
compromising security.
    And then the more complicated one--I am not a computer 
programmer, I did hear Dr. Rubin suggest that writing more 
lines of code doesn't always make a system more secure, in 
fact, it may make a system less secure. So, what I would 
encourage all of you, as well as all of the folks in the 
security industry, is to get out there as patriotic Americans, 
we want to make sure our country is secure. I would start 
making those recommendations to the federal government and I 
would ask the Administration to be open to inviting folks in to 
come in and make those suggestions because there is a lot of 
knowledge out there. You know, again, Dr. Chang suggested there 
are lots of vulnerabilities out there, so my message to the 
Administration would be, instead of being insular, let us 
actually invite folks in, Democrats and Republicans, to look at 
this website and make sure it is secure, and with that, I will 
yield back.
    Chairman Smith. Okay. Thank you, Dr. Bera. The gentleman 
from Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Thank you, Mr. Chairman.
    I am not a computer security expert but I can read the 
words of those who are. The Science, Space, and Technology 
Committee staff prepared for Members' use a document called 
Hearing Charter, and according to our hearing charter, in order 
to use HealthCare.gov, American citizens will be asked to input 
or verify this type of information: birth and Social Security 
numbers for all family members, household salary, debt 
information, home mortgage information, credit card 
information, place of employment, previous addresses and the 
like. So when I see that, that causes me to pause. It causes me 
to have concern because that is a lot of personal information. 
I am sure that some criminal identity theft type of individual 
would consider that a dream, a wealth of information to get 
their hands on. Which brings me to the benefit of some of your 
written testimony, which of course is more extensive than your 
oral testimony, and if the Committee will bear with me, I am 
going to read from some of the written testimony that we 
received before we heard the oral testimony. ``The vast amount 
of code also means applying industry standard security 
practices is a task that can have no real chance of success at 
present.'' No real chance of success at present. ``The first 
major issue is the lack of an inability to conduct an end-to-
end security test on the production system.'' Obamacare ``also 
creates massive opportunity for fraud, scams, deceptive trade 
practices, identity theft and more.'' Another one: ``The lack 
of effective security controls has created the conditions for 
massive fraud and hacking.'' Yet another one: ``The most 
troubling insider threat aspect would be the lack of a 
personnel policy that requires background checks for 
individuals with access to PII''--personal information--``or 
sensitive information systems.''
    During testimony November 6, 2013, Secretary Sebelius 
admitted that convicted felons could be hired as navigators and 
that no federal policy existed to require background checks. So 
we have got the insider threat. Another one: ``There are clear 
indicators that even basic security was not built into the 
HealthCare.gov website.'' Another one: ``There are systemic and 
serious concerns with the HealthCare.gov website. Based on our 
experience in large web applications such as this, there are a 
few options available in order to address the security concerns 
with the website,'' and the list just goes on and on and on.
    It seems to me that the Obamacare website is the mother 
lode for identity theft, internet fraud and other criminal 
activity. It is quite frankly frightening and outrageous that 
the White House so callously and cavalierly exposes so many 
Americans to risk of debilitating financial damage, and all of 
this brings me to my questions. If HealthCare.gov identity 
theft occurs, an American citizen is financially damaged. What 
recourse does that citizen have under Obamacare against the 
federal government for compensation for financial losses 
occurred because we American citizens use the website we were 
told to use under Obamacare? Can any of you all describe to me 
what remedies, what recourse, what compensation can a citizen 
receive from the federal government for use of the website we 
are mandated to use that results in identity theft or other 
adverse effects?
    Mr. Wright. My very quick answer is, what form do I fill 
out to get my identity back because there is no way to do that. 
You can give me a credit card, you can fix my card, but once my 
identity is taken how do I get that back. That is probably one 
of the key things that has concerned me just from a technology 
standpoint is the protection from an identity theft standpoint. 
We can fix a lot of other stuff but your identity is what makes 
you who you are.
    Mr. Brooks. Dr. Chang, do you have any compensation that a 
citizen who has been wronged can get from the government for 
use of Obamacare's website?
    Dr. Chang. I think I would just maybe respond sort of 
generally. There is this notion kind of in credit card fraud 
that you basically hold the consumers harmless. This is very 
complex. They talk about 500 million lines of code, all this 
kind of scripting and stuff. It is very complex, and to expect 
users to have any sort of deep understanding of it, you might 
say gee, it is sort of like a credit card. You kind of hold 
them harmless.
    Mr. Brooks. I have only got 30 seconds left, so I am going 
to conclude with one quick question. Given HealthCare.gov's 
security issues and assuming for the moment that you would be 
personally responsible for all damages incurred, if any, from 
your advice, would any of you advise an American citizen to use 
this website as the security issues now exist? Yes or no.
    Mr. Kennedy. No, sir, not at this time.
    Mr. Wright. Same answer.
    Dr. Chang. Same answer.
    Dr. Rubin. Yeah, I wouldn't yet.
    Dr. Brooks. So it is a unanimous no, don't use the web site 
because of the security risks?
    Dr. Rubin. I would say that the security would have to be 
studied a lot more carefully before I would agree to that.
    Mr. Kennedy. And disclosed.
    Mr. Brooks. Thank you for your insight. I hope the American 
people are listening. With that, Mr. Chairman, thank you for 
the time.
    Chairman Smith. Thank you, Mr. Brooks. You elicited a 
unanimous response on that question.
    The gentleman from California, Mr. Takano, is recognized.
    Mr. Takano. Thank you, Mr. Chairman. I am disappointed that 
the Committee is spending its time this morning adding to the 
political drama around the Affordable Care Act. There have 
already been over 40 hearings this year on the Affordable Care 
Act by House committees, 15 of those since open enrollment 
began on October 1. And now we can add the Science Committee to 
that list.
    While there certainly have been issues with the rollout of 
the website, the stories of how the Affordable Care Act is 
already helping millions of people are drowned out by the scare 
tactics used by my colleagues on the other side of the aisle. I 
have here the Republican playbook for undermining the ACA. It 
is filled with examples of how to scare constituents away from 
Obamacare. It is in the American people's best interest to 
encourage participation in the exchanges to help bring down 
premiums for everyone. But for my colleagues, it seems it is 
not about the American people winning, it is about them 
winning.
    This hearing is just another attempt to undermine the 
President's signature law and follow their playbook.
    Mr. Rohrabacher. Mr. Speaker, Mr. Chairman----
    Mr. Takano. Well, I would like to----
    Mr. Rohrabacher. Mr. Chairman, I----
    Mr. Takano. While I would like to balance the record and 
share----
    Mr. Rohrabacher. Mr. Chairman, might I ask----
    Mr. Takano. Mr. Chairman, I do not yield. I reclaim my 
time.
    Mr. Rohrabacher. I am not asking you to yield. I am asking 
the Chairman to make a decision as to whether or not what you 
just did was impugning the integrity of those who are 
disagreeing with you on this side of the aisle which is----
    Chairman Smith. Yeah, I would say the gentleman from 
California----
    Mr. Rohrabacher. --inconsistent with the rules of this 
Committee.
    Chairman Smith. I appreciate the gentleman from California 
bringing that issue up, but in the Chair's judgment, the 
accusation was general enough and not specifically addressed 
towards any individual. So I am sure the gentleman will not 
repeat it. But I would not say at this point it was out of 
order.
    Mr. Rohrabacher. Thank you very much.
    Mr. Takano. Thank you, Mr. Chairman. I would like to 
balance the record and share a bit about how the ACA is helping 
my constituents. Twenty-four percent of my constituents are 
uninsured. That is 175,000 people in my district alone. The 
Affordable Care Act will get them covered so they don't have to 
worry about going bankrupt or being unable to get care if they 
become sick. Just yesterday I heard from a constituent who lost 
her insurance when her husband became sick with Parkinson's 
disease at the age of 50. Now through Covered California, she 
and her sons are able to get robust coverage, and they are 
saving more than $600 a year.
    Yes, the federal rollout has been complicated, and yes, we 
should be sure the website is protected from attack and 
Americans' personal information is secure. The law is about 
more than the website. It is about peace of mind for millions 
of Americans who need and deserve affordable coverage.
    Now, I have seen a lot of--I am an English teacher, and I 
have seen a lot of rhetorical, a lot of red herring, rhetorical 
confusion sort of statements and testimony being made, and I 
just want to clarify something with you, Mr. Kennedy. I have--
you were asking, responding to--excuse me. Before the hearing, 
you met with staff to discuss the vulnerability you found on 
the Data.HealthCare.gov site. In that meeting you said that you 
could not know what the architecture of Data.HealthCare.gov, 
what it was or how it was connected at the systemic level with 
HealthCare.gov. These are two separate websites.
    Now you are saying that they share an infrastructure. I am 
not sure what you mean by that, but it implies that they are 
one in the same site. Now, let me ask you a simple question. 
You could see the account information for Data.HealthCare.gov, 
a site that is not designed for consumers but for researchers 
who look at national aggregations of data on health plans. Is 
an account at Data.HealthCare.gov also an account at 
HealthCare.gov? Are they the same?
    Mr. Kennedy. There are two questions there. The first is, 
is the account the same.
    Mr. Takano. Are they the same? That is my question.
    Mr. Kennedy. They are not the same.
    Mr. Takano. Okay. Thank you. Dr. Rubin, based on what you 
were able to learn preparing for this hearing, what are the 
vulnerabilities at HealthCare.gov implicit in Mr. Kennedy's 
discovery about the data website managed by CMS?
    Dr. Rubin. It is really not clear to me. The 
Data.HealthCare.gov, I went to it and looked at it, and it is a 
different kind of a site. And I am not sure. I would need to 
study the linkage between, if there is any, the accounts on 
HealthCare.gov and the accounts on Data.HealthCare.gov.
    Mr. Takano. Okay. So Mr. Kennedy, do you believe there is 
any connection?
    Mr. Kennedy. I do. I do believe that there is significant 
connection. If you think HealthCare.gov, it is not just 
www.HealthCare.gov. Think of a house where you have a door 
which may be the entryway into it. There are things that 
support that website that pull data feeds in, and there are 
direct data feeds that get pulled in from Data.HealthCare.gov 
that are directly represented on HealthCare.gov. Information 
consists----
    Mr. Takano. But are consumers going to be going to that 
site?
    Mr. Kennedy. Not necessarily. I don't know enough about the 
infrastructure to say whether or not consumers----
    Mr. Takano. So you don't know anything about the 
infrastructure?
    Mr. Kennedy. I don't know enough about the infrastructure--
--
    Mr. Takano. Yet, in your testimony there is an implication 
that people could draw that there is one.
    Mr. Kennedy. Well, there are over 100,000 individuals 
registered for that website. It would be indicative that it is.
    Mr. Takano. Well, I think this is kind of an example of the 
confusionous sort of testimony, a red herring to make the 
American people--to scare the American people.
    Mr. Kennedy. I would say that extracting 100,000 
individuals' email addresses----
    Mr. Takano. Again, you don't know the infrastructure.
    Chairman Smith. Mr. Takano, would you mind letting the 
witness answer one of those questions?
    Mr. Takano. Thank you. My time is up, Mr. Chairman.
    Chairman Smith. Okay.
    Mr. Wright. Mr. Chairman, could I actually add something? I 
wanted to clarify something. I just talked with your staff.
    I just went through to create an account because the 
implication was made is that they have changed it. I am 
actually here right now with an account asking me to verify my 
home mortgage, Social Security number and stuff. So in terms of 
my testimony, I just wanted to make sure to be factual is that 
it still requires me to verify and provide personally 
identifiable information, Social Security number, credit 
information before I can create an account.
    Chairman Smith. Thank you for that clarification. The 
gentleman from Utah, Mr. Stewart, is recognized for his 
questions.
    Mr. Stewart. Mr. Chairman, could I beg to defer my question 
for several and come back?
    Chairman Smith. Absolutely. We will return to you in just a 
minute. We will go to the gentleman from New York, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. I think it is 
probably appropriate after that give and take, I am just going 
to ask six yes/no questions. How is that? We will start with 
Mr. Wright, go down the line, and there are six of them.
    Number one, would any of you have launched HealthCare.gov, 
recommended the launch, given the factual, known status of the 
website on October 1?
    Mr. Wright. No.
    Dr. Chang. No.
    Dr. Rubin. No.
    Mr. Kennedy. No.
    Mr. Collins. Number two, would any of you have signed off 
as experts on the front-end requirement to enter personal data 
to be able to go get pricing and other information?
    Mr. Wright. No.
    Dr. Chang. No.
    Dr. Rubin. No.
    Mr. Kennedy. No.
    Mr. Collins. Do any of you today think today that the site 
is secure?
    Mr. Wright. No.
    Dr. Chang. No.
    Dr. Rubin. No.
    Mr. Kennedy. No.
    Mr. Collins. While this is a hypothetical, in your opinion 
do any of you think the site will be secure on November 30?
    Mr. Wright. No.
    Dr. Chang. No.
    Dr. Rubin. No.
    Mr. Kennedy. No.
    Mr. Collins. In your opinion, how long do you think it will 
be before the site could be secure? Just give me an estimate of 
months.
    Mr. Wright. Unknown.
    Dr. Chang. Hard to estimate.
    Dr. Rubin. I don't have enough information.
    Mr. Kennedy. A long time.
    Mr. Collins. And finally, last question. This will be a 
record, Mr. Chairman, in a five minute questioning session. 
Would you recommend today that this site be shut down until it 
is verified to be secure?
    Mr. Wright. Yes.
    Dr. Chang. Yes.
    Dr. Rubin. I would need more information.
    Mr. Kennedy. Yes.
    Mr. Collins. Thank you, gentlemen.
    Chairman Smith. Thank you, Mr. Collins. You would be a 
dangerous lawyer. The gentleman from Texas, Mr. Veasey, is 
recognized for his questions.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to 
specifically ask you about a couple of events that have been in 
the press here lately. One was a large bank, financial 
institution that had their information compromised. CitiGroup 
had an attack of about 146,000 people that had their Social 
Security numbers, their date of births and other information 
that was compromised, and there was also a large defense 
contractor that also had over 70,000 individuals that had their 
names, Social Security numbers, date of birth, blood type, 
other contact info. Can you explain how individuals are at 
greater risk of identity theft under HealthCare.gov than any of 
these other sites that I have just named?
    Mr. Kennedy. I can take that, and I appreciate your 
question there. There is no doubt that the hacking community 
and what is going on right now with technology is a great 
threat. I mean, it is happening all the time. There are attacks 
happening all over the world from different locations on 
different companies as well as government agencies.
    And so what we need to do and what we need to bring 
awareness to, and this is why we are here as experts on the 
security side, is bring awareness to what you can do to prevent 
these type of attacks from happening because they are 
preventable. You can do secure coding. You can do things that 
prevent hackers from breaking in. You can stop them in the very 
early stages of an actual attack. And these companies that 
experience these type of breaches fundamentally had flaws in 
their security program that allowed these type of exposures to 
happen. There is a lot of success stories that have happened, a 
lot of companies that haven't experienced breaches. And those 
are the companies that I think hold true to proper secure 
coding practices, proper testing and ensuring that they have 
security injected into their software development lifecycle to 
prevent these type of exposures in the meantime.
    Mr. Veasey. Dr. Rubin, I would be interested to hear what 
you have to say.
    Dr. Rubin. I mean, he was echoing my thoughts exactly----
    Mr. Veasey. Okay.
    Dr. Rubin. --that there are known practices that if they 
are followed with proper personnel and proper training and 
proper security practices and encryption and the right software 
and the right software life cycle. You can't ever make a system 
that any security professional would claim is entirely secure, 
but you can make something that should stand up to the attacks 
that we are seeing today.
    And so the sites that have been compromised, if you dig 
deep, and I have had experience and opportunity to dig deep in 
some of the sites that have been compromised, you often find 
that they either weren't vigilant enough, were running the 
wrong software or weren't following some well-known best 
practice that would have prevented the problem.
    Mr. Veasey. Have any of you, particularly because of the 
question that you just answered from the previous 
Congressperson on the dais on the Republican side, have any of 
you done a security assessment of HealthCare.gov? Because I 
mean, for you to be able to say that, no, you think that it 
should be shut down, I am assuming that you have done a 
security assessment.
    Mr. Kennedy. To answer that question, what we can see is 
indicators of security flaws, things that would be basic for an 
attacker to go after that should be addressed, even by the most 
simplistic scans or ways of detecting exposures. So to answer 
your question, I have not performed a security assessment on 
HealthCare.gov because I am not authorized to. However, based 
on using public information and information that is readily 
available, there are clear indicators that there are major 
security concerns on the website based off of what we can 
identify without actually attacking the site itself.
    Mr. Veasey. I would like for everybody to answer that one.
    Mr. Wright. Yeah, and what he is getting at, too, it is 
just the example I was talking about when the original denial 
of service attacks happened. They didn't happen right away. 
They built up until they got critical mass over a period of six 
months. The Chinese People's Liberation Army, the Mandient 
report, advance persistent threat one did this for years. You 
will not see the massive attack in the first 30 to 60 days, but 
what you have are the precursors and the indicators and in a 
sense warnings is that all the conditions are there, the 
vulnerabilities are there, the lack of an end-to-end security 
test is there which will create the condition in the future, 
just like a forest fire. It is a recipe for disaster at some 
point in the future if it is not remediated.
    Dr. Chang. Yeah, I guess I would echo what some of the 
others have based on information that seems to be publically 
available, based on the testimony of David, and just this 
general idea that I mentioned before that the web is basically 
a pretty dangerous place, and some of these precautions haven't 
been inserted is cause for concern.
    Dr. Rubin. I think that the attacks that have been 
published so far and that I have seen have all been ones that 
are easily fixable, and the ones that have been around for a 
little while have been fixed. And before I would recommend 
shutting something down, I would have to know that there was 
some inherent security problem or architectural flaw that 
necessitated that as opposed to some small superficial type 
risks that can be easily fixed. I don't want to minimize them, 
but if they can be fixed, that is better than shutting it down.
    Mr. Veasey. And to clarify the exchange that you had with 
Mr. Kennedy a little bit earlier, you talked about the HIPPA 
protocols, I just want to clarify something for everybody that 
may be watching this. HIPPA applies to medical records which 
are not stored in HealthCare.gov, is that correct?
    Dr. Rubin. That is my understanding.
    Mr. Veasey. Okay. All right. Mr. Chairman, thank you.
    Chairman Smith. Thank you, Mr. Veasey. The gentleman from 
Arizona, Mr. Schweikert is recognized for his questions.
    Mr. Schweikert. And thank you, Mr. Chairman, and to a 
couple of my fellow Members, thank you for letting me skip 
ahead. I have another appointment in a moment. I need to 
disclose, I am sort of a junior-level SQL programmer which 
makes me just dangerous enough to think I know what is going 
on. Not that I wouldn't know about any of these blogs, but 
while sitting here I went on a couple of the hacker blogs that 
I have some familiarity with. Some of them, you all know, 
because I am sure when you are hunting for public information--
that is why I have been a little surprised at some of the 
dialogue back and forth here saying let's have sort of a 
technical discussion instead of a political one that seems to 
be coming from the other side.
    Outside of the, what is it, a DDoS type attacks, which are 
easy conceptually, mechanically, I found one whole discussion 
group talking about SQL injections. I would think that would 
have been just a junior-level thing to have avoided and tested 
for. So Mr. Wright, should I have a level of concern that just 
in sitting here in 40 minutes I was able to find a number of 
blogs talking about here is a script you might try?
    Mr. Wright. I am shocked it took you that long because it 
is out there. You look at the common vulnerability expressions, 
basically a common vulnerability database. One of the things 
you can do that is a very easy check is to check your site 
against the top 20 things that are out there and see how you 
rank against that. That is public information. The FBI does 
that. I think it is the San Francisco Field Office in concert 
with the security administrator networks. It is called SANS, I 
think, and then MITRE has that. There is stuff out there you 
can already test it again.
    Mr. Schweikert. It is an automated script. You can just 
load it in and test your----
    Mr. Wright. And you can do--there is a lot of automated 
testing. But again, to David's point, there is no authorization 
from our side to conduct that and nobody wants to run afoul of 
the law. So you can only do things that are passively or 
recognizance. You can't do anything active against the site.
    Mr. Schweikert. Dr. Chang?
    Dr. Chang. So I guess I would relate back to this idea that 
hackers will be patient. So David talked about, you know, kind 
of probes and scans. They are basically going to sort of check 
things out, try to understand if they will recognizance. They 
will, you know, press and probe. They will be patient.
    Mr. Schweikert. Dr. Rubin?
    Dr. Rubin. Yeah. I mean, I think that the sequel injection 
attacks are one of the better-known types of attacks, and they 
can easily be prevented up front. From the demonstration that 
Mr. Kennedy did, it shows that people are actively trying out 
to see if there are sequel injection vulnerabilities.
    Mr. Schweikert. Mr. Kennedy, I was going to actually go to 
something else because it is come up now I think two or three 
times in the discussion. HealthCare.gov, we should think of it 
as a portal that is reaching out and touching a number of 
different databases, and those different databases all, you 
know, most likely have also entries into those. So it is a 
connected web. And there has been some of the absurdity of some 
of the argument coming here is, well, you know, is it 
HealthCare.gov? If there is lots of ways to get into the hub, 
you will have lots of different paths of vulnerability. And I 
mean, I am trying to describe it as simply as possible. Am I 
doing okay?
    Mr. Kennedy. You are perfect. It is entirely accurate. If 
you look at what was mentioned, the data hub and the different 
sites that make up HealthCare.gov, HealthCare.gov is what we 
call the end-user experience, the user interface, the UI. That 
is when people browse and kind of view and things like that. 
But data that comes in from there comes from different areas. 
It comes from state exchanges, it comes from 
Data.HealthCare.gov. If you want to click on the live chat 
button on the bottom right, it takes you to 
Chat.HealthCare.gov. So there are different sites that make up 
what you see in your browser.
    Mr. Schweikert. And that is often the vulnerability. It 
could be over here just a discussion group that actually has 
access in and that is my path in the line of code.
    Mr. Kennedy. In fact, right before this all started, I got 
an email from an individual that had sent me basically about 14 
different exposures that they identified, and one of them was 
basically how to manipulate data that could be directly 
portrayed on the HealthCare.gov website because it pulls in 
from these different areas.
    So, to put this conceptually and easy, it hooks into IRS, 
it hooks into DHS, it hooks into Experion which is a third 
party. You have all these trusted connections. You have all 
these things that make up the site itself. But the pieces that 
actually make up www.HealthCare.gov are multiple areas.
    Mr. Schweikert. Yeah, I just need everyone to sort of 
understand that because there seems to be a misunderstanding of 
thinking it was a siloed website, and it is just the opposite. 
You know, think of it sort of as the spider web.
    In my 20 remaining seconds, we have half-a-billion lines of 
code. Market value or market pricing right now for really 
beautiful, high-end code is what, 45 bucks a line? 50?
    Mr. Kennedy. It averages and depends based on what type of 
programming language and infrastructure, but sure.
    Mr. Schweikert. And so that is where I have been trying to 
get my head around saying if just half-a-billion lines of code, 
particularly when you are reaching out and pulling in out of 
other databases and then standardizing it, does something seem 
almost absurd?
    Mr. Wright. Well, there is also another paradigm, to, that 
if it costs you $1 to fix it before you launch, it will cost 
you up to $100 to fix it after you launch.
    Mr. Schweikert. You beat me to the punch line.
    Mr. Wright. Oh, sorry about that.
    Mr. Schweikert. No, it is okay. Mr. Chairman, thank you for 
tolerance, and thank you everybody.
    Chairman Smith. Thank you, Mr. Schweikert. The gentleman 
from Illinois, Mr. Lipinski, is recognized for his questions.
    Mr. Lipinski. Thank you, Mr. Chairman. As Mr. Veasey had 
said and others have said, I think it is important enough to 
make the point again for those watching as I have been in my 
office up until now, HealthCare.gov does not store any 
personal, medical information or other information. So a hacker 
could get access to sensitive information, the hacker could not 
simply access all a person's life and medical history. I think 
it is important that we make clear that to the American people.
    You know, it should be said that also cyber security 
threats are not unique to HealthCare.gov, and I have some 
concerns that we are just focusing on the security of 
HealthCare.gov but not other potentially vulnerable systems. 
Just yesterday, for example, the Treasury Inspector General for 
Tax Administration issued a report which found the security 
configuration settings on IRS servers were not set in 
accordance with IRS policy. The report stressed that if these 
servers were accessed by unauthorized persons, they might be 
able to access large amounts of sensitive information.
    So I think that there are other things we should be looking 
at. It is easy right now to beat up on HealthCare.gov, but I 
think we should make sure we are doing our job in looking at 
all of the potential vulnerabilities in cyberspace, with cyber 
security, with government systems. But everyone would have to 
admit that the HealthCare.gov website rollout has been an 
unmitigated disaster. My personal experience with DC Health 
Link so far has not been very good, either, but I don't think--
we are not talking about that right now.
    Apart from the obvious issues of the lack of usability of 
the website, there have been security flaws present at the time 
of the launch which would have compromised the data that people 
entered into the site as has been mentioned. The fact the 
information is not stored on the website would be cold comfort 
to anyone who had their Social Security number and other 
sensitive info stolen as it was submitted to the website. I 
never want to downplay that importance.
    In a memo on September 27, the CMS Administrator, Marilyn 
Tavenner, revealed that a contractor had not had access to all 
the security controls to test the system. The memo went on to 
say that, ``From a security perspective, the aspects of the 
systems that were not tested expose a level of uncertainty that 
can be deemed a high risk.''
    So we certainly have examples of problems with 
HealthCare.gov. We have talked about those. I have long been 
concerned about cyber security issues in general, which is why 
in the last three Congresses I have cosponsored the Cyber 
Security Enhancement Act with Congressman McCaul. This 
legislation would improve federal research and workforce 
development in the field of cyber security. I am glad that we 
have moved that here in this Congress.
    I have also sponsored several bills which would make 
necessary changes to the Affordable Care Act including one to 
delay the individual mandate unless HHS's IG was able to 
certify that the website was working by November 30. I did not 
vote for the Affordable Care Act, but I think that we owe it to 
the American people to put partisanship aside and make 
necessary changes to the Affordable Care Act when they are 
required. I have certainly stepped forward to try to do that.
    So with that long introduction, my question for the panel--
hope you had some time to rest there--is whether a similar 
approach in some ways is needed for HealthCare.gov. So I want 
to ask, would it be helpful to have the--and this is for 
everybody. Would it be helpful to have HHS's IG certify that 
all known security issues have been dealt with and that a 
process was in place to proactively identify and address major 
security issues as they arise? Do you feel that an adequate 
process is currently in place. That is we talked a lot about 
issues here. Do we need to have a system maybe, like I said, 
HHS's IG or someone else who is looking at this and making sure 
that the processes are in place as these things are found? We 
never know for certain every single possible weakness. But 
would you think that would be helpful to help moving security 
along on this system?
    Dr. Chang. I wrote down some questions that are kind of 
along those lines. Maybe I will read them now. They might be 
useful. I think I would ask questions like how resilient is 
HealthCare.gov to a hacking attempt? What is your evidence? 
When there is a breach, how will we respond? What is our 
process for monitoring the security of HealthCare.gov? When a 
vulnerability is found, how quickly is it remediated? Are we 
taking all reasonable steps to protect the sensitive data on 
HealthCare.gov? What is the evidence?
    Mr. Wright. And to your point, it would be helpful because 
then we are dealing with a known. Now we have a report, and it 
may be is that the report would ameliorate a lot of the 
uncertainty that is out there. But on the other hand, you have 
to be prepared for the fact is that the report would identify 
the structural deficiencies that cannot go on and still allow 
the site to operate. But at any point, a knowledge base as Dr. 
Rubin was talking about would be helpful to make the proper 
assessment by experts and trusted people in the field to give 
you an idea, they, yeah, this can be fixed or no, it can't be 
fixed.
    Dr. Rubin. I think it is important to do what you are 
suggesting and to have reviews both at the high level because 
the questions that Dr. Chang was asking were high-level 
questions but as well as the low-level questions, a technical 
checklist of particularly known problems and making sure that 
all of those are addressed.
    Mr. Kennedy. I think the fundamental differences that we 
have here is there's no question that there is no security 
vulnerabilities with the website or that there are security 
issues that we know about right now with the website itself. So 
we know that there are vulnerabilities. We know that there are 
security concerns.
    So having a process in place to actually address those in a 
very quick manner is a very good process to have and ensuring 
that they get remediated in a very timely, effective manner. 
Now, the question I would pose back is it is so complex that 
introducing changes to what we call a production site or 
something that is live and running becomes extremely critical 
and very hard to do because of the working code that is behind 
it.
    So meeting those timeframes and meeting the ability to 
actually fix those issues may become more difficult to do in 
the current working environment that you have right now.
    Mr. Lipinski. Thank you.
    Chairman Smith. Thank you, Mr. Lipinski. The gentleman from 
Utah, Mr. Stewart, is recognized.
    Mr. Stewart. Thank you, Mr. Chairman. Thanks for holding 
the hearing, and to the witnesses, thanks for your service. 
Thanks for being here today.
    You know, I am just a guy. I am not a genius, but I got to 
tell you, you don't have to be a genius to listen to your 
testimony today and to be scared to death. If I were in my 
living room or home doing dishes, listening to you as you have 
testified today, I would be scared to death. Americans should 
be scared to death.
    I would like to come back to my friend, Mr. Collins, and 
his series of questions. I am not going to ask you to repeat or 
answer these questions again but just to review them for you 
and your response. Would any of you have launched 
HealthCare.gov? Unanimously, the answer was no. Would any of 
you have signed off on the front-end personal data requirement? 
Again, unanimously the answer was no. Is the site secure now? 
Once again, no. Will the site be secure on December 1? Once 
again, the answer is no, that you provided.
    I would add one more, and I would ask your response on 
that. Is it possible to know how many attacks have occurred 
against HealthCare.gov and its associated sites? Are you aware 
of any? And let me kind of frame it in this question. If you 
were a Chinese cyber terrorist, wouldn't you consider this just 
a target-rich environment?
    Mr. Wright. So sir, to that point, you can only manage what 
you can measure, and if you are incapable of measuring the 
attacks and you don't have the capacity, you won't even be 
aware that those attacks have occurred.
    So the point where they say they have only had so many 
attacks, that is based on what they know. Again, I go back to 
what Donald Rumsfeld said, you know what you know, you know 
what you don't know. What we are dealing with----
    Mr. Stewart. Sure.
    Mr. Wright. --here is we don't know what we don't know, and 
until you have a comprehensive review of the site and you 
really understand your security posture and then put the 
defense in-depth strategies in place you have absolutely no 
idea about how many attacks.
    Mr. Stewart. But there is no reason for us to be optimistic 
about the number of attacks or the vulnerabilities of this 
site, wouldn't you agree?
    Mr. Wright. I would say the number of attacks vastly 
understate the actual threat.
    Mr. Stewart. Yeah, absolutely.
    Dr. Chang. Yes, I would happen to agree. We are very early 
on in the start-up of this website. My concern would be that 
they are spending now time basically kind of, you know, 
investigating, analyzing, kind of preparing. So this is the 
prep phase.
    Mr. Stewart. Okay. Anyone else, if you have something to 
add? Okay. Let me kind of make this point then. If you were a 
federal official who had the authority and this was a private 
company and you were examining this company and saw the issues 
that you do with HealthCare.gov, and again, if you had the 
authority, would you shut that site down?
    Mr. Wright. Yes, and I will tell you what we suffered from. 
If you think of the Challenger disaster and the Apollo 
missions, people had go fever. This was going to happen on 
October 1 no matter what. No matter what risk finding you had 
and regardless of how serious it was, go fever said that we 
were going to launch on October 1. That is not the way to run a 
business.
    Mr. Stewart. Okay. Anyone else want to----
    Dr. Rubin. Sure. I agree that it is pretty bad to have a 
particular date in mind that you are going to go no matter 
what. I think that the shutting down again will require a 
review to ascertain whether there are fundamental security 
problems or kind of scratching the surface security problems 
that can be easily fixed.
    Mr. Stewart. Yeah. You know, I just think the irony isn't 
lost on people when they say the government, one of the 
responsibilities they have is to help set up processes to 
protect my personal information. And yet we have exactly the 
opposite here where not only are they not protecting them but 
they are requiring them and allowing the government to move 
forward with the program that is going to do exactly the 
opposite which then, if I could make my final point and 
question to you, what would you say to your constituents if you 
were me? What should I tell the people that I represent, the 
American people? I mean, how could I in good conscience go back 
and encourage them to participate in this program when we know 
that they are exposing themselves if they do? Can you help me 
with that? I mean, I would appreciate any advice you got on 
that.
    Mr. Wright. That is the advantage on being on this side of 
the table is I don't have to.
    Mr. Stewart. Okay.
    Mr. Wright. No, you are in a very tough--and it is very 
tough. But at some point, people intuitively know. You have to 
tell them the truth. They have to make their own decisions. 
Still, the consumer needs to be aware. Educate them, tell them 
what the risks are, and if they choose to do it, it is still a 
consumer issue. But what we are dealing with here is a lack of 
awareness, education and people really understanding what the 
risk is. If they choose to take the risk, that is their issue 
at that point. But without knowing it, it is very hard to make 
that decision.
    Mr. Stewart. Anyone else want to counsel us on that? Thank 
you. Mr. Wright, I think you hit on the key to that is all we 
can do is tell the truth, and I think that is the purpose of 
this hearing here is to help people understand what is the 
truth, what is actually happening here. And that is why I think 
this has been valuable.
    So Mr. Chairman, with that I yield back my remaining two 
seconds.
    Chairman Smith. Thank you, Mr. Stewart. Dr. Chang, I know 
you have to leave at noon. We are now a couple minutes past 
that in order to catch your flight. So thank you for being here 
today and thank you for your testimony.
    Dr. Chang. Okay. Thank you.
    Chairman Smith. Thank you. And we'll go to the gentleman 
from Oklahoma, Mr. Bridenstine, for his questions.
    Mr. Bridenstine. Thank you, Mr. Chairman. I just wanted to 
ask the panel--first of all, thank you so much for being here, 
and thank you for your service. There has been a lot of 
accusations from the other side of the room. I just wanted to 
ask the panel, did any of you guys come here because you wanted 
to scare the American people in an effort to bring down this 
law? Was that the intention of anybody on the panel?
    Mr. Kennedy. The purpose for us coming here is to explain 
what issues we identify. We are agnostic when it comes to the 
politics side. We are security researchers. We are folks that 
understand security, and our whole purpose here is to educate 
around what security concerns that we can see. I mean, I don't 
understand how you do your day-to-day jobs and how you work the 
government in every single side of the House. But I understand 
security. I understand how security works, and these things can 
definitely be fixed ahead of time. And it is not to instill 
fear at all. It is just to get the awareness out there, to get 
the information out there to help better educate and fix the 
issues that are apparent with the site.
    Mr. Bridenstine. Thank you.
    Mr. Wright. I think it was Harry Truman who said it best. 
We don't give them hell, we just tell the truth. They think it 
is hell. No, there is no R or D or I in computer codes. It is 
ones and zeros. The computer is agnostic about what it does. We 
had discussions--everybody here, we are not here to talk about 
the political issue, should it be up or down. We are saying if 
you are asking us, based on our background and experience and 
put our reputation on the line to say should we do this, it is 
about the technology. That is why, Congressman Stewart, I am 
glad we are on this side because you deal with the politics, we 
deal with the technology which sometimes is far easier than 
what you deal with. But no, the purpose coming here today is 
educate, awareness, give you our opinions. But we don't control 
those levers of power. What we do, as David said and Dr. Rubin 
says, we are here to give you our unbiased opinion what we 
think.
    Mr. Bridenstine. Dr. Rubin?
    Dr. Rubin. Yes, I agree with both of them.
    Mr. Bridenstine. Okay. Speaking of it, you mentioned the 
code, the code is non-partisan, there are 500 million lines of 
code. What is the risk? When you talk about 500 million lines, 
can you give me some comparisons and share with me what does 
that mean as far as risk?
    Mr. Kennedy. Whenever you introduce this amount of 
complexity, you introduce a significant amount of risk, 
especially from what we are understanding around the security 
testing, which was rushed out the door and not all components 
actually tested. So it is very much a critical risk from the 
lines of code that were developed, and to be honest with you, I 
have not seen--and I have worked for Fortune 10, Fortune 50, 
Fortune 100, Fortune 1000 companies as well as on the 
government side, I have not seen an application that pales in 
comparison to 500 million lines of code, including some of the 
largest applications you would ever see in the history of man.
    Mr. Wright. Just to put it in perspective, the website 
should be similar to a game of checkers. It should be that easy 
to understand. Instead, we are trying to find a chess master 
who can play 20 games of 3-D chess at the same time. That is 
the difference in the complexity of code because when you have 
two pieces of data, there's just not one possibility. There are 
actually four possibilities. There is no data, one piece, the 
other piece and then both pieces together. So when you add 500 
million lines, then you are talking do the old checkerboard 
thing, put a penny and keep doubling it until you get to the 64 
square, that is the complexity we are talking about.
    Mr. Bridenstine. So when you talk about this complexity, 
Mr. Wright, I think you are hitting on a critical component 
that it is hard for people who aren't computer programmers to 
wrap our brains around which is if you fix one piece of that 
500 million lines of code, what are the--I mean, there's got to 
be some side-effects that result from that, is that correct? 
And how does that work?
    Mr. Wright. Side-effects is a good term. Yeah, you create 
an unintended series of cascading events that you have no 
control over because you don't have a grasp of what the code is 
actually doing. And to David's point, and he can actually show 
you these vulnerabilities, you think you have changed one 
thing, by doing that you have opened up a Pandora's box of 
vulnerabilities on the other side because you could not account 
for the path, the 72 places it had to go to before it finally 
got there. It is so complex, you can't manage that.
    Mr. Kennedy. And just taking it from the functionality 
side, when you introduce a piece of code that fixes a flaw, you 
could break the functionality piece that users see on a regular 
basis, too, because again it is so complex. So you fix one, you 
break another. It doesn't necessarily mean you fixed the 
security issue. You may not be able to actually browse a site 
or visit what you intended to actually use.
    Mr. Bridenstine. Just out of curiosity, if you had to 
assess the length of time it would take even to assess the 
security risk, how long of a period of time are we talking?
    Mr. Kennedy. To look at 500 million lines of code, there is 
a process we call source code analysis where you actually look 
at the code itself. And that is going to be your most 
comprehensive way of looking at the actual exposures.
    And then you have what is called dynamic testing which is 
on top of it to look at the live running sites. So you marry 
those two together to perform kind of a holistic approach to 
looking at the overall security around the site itself. Five 
hundred million lines of code? I would say to do it properly 
would probably take about six months or so just to do the 
review cycle of it.
    Mr. Bridenstine. And then after that you would have to do 
the fixes to secure it. How much longer would that take?
    Mr. Kennedy. And that is the problem. So in my written 
testimony, I gave three different options for recommendations 
on how to actually address the concerns with this because if 
you look at it then, let's just say that 20 percent of the code 
needs to be rewritten based on the exposures that are 
identified. If you introduce 20 percent new code into a running 
website that is up there right now, you are absolutely going to 
have some major systemic issues with the stability of the site 
as well as introducing new exposures to it.
    So the first recommendation was to rebuild it in a sense of 
kind of like a version 2.0 which incorporates all of these 
changes or is rewritten from scratch to really kind of address 
it.
    The second option was shutting down the site itself, making 
the changes and putting it back up after you've addressed 
those.
    The third option was basically letting the website run and 
introducing new code into that environment which would 
obviously create stability concerns.
    Each one of those has different links and times. If you do 
a version 2.0, based on the knowledge you already have with how 
to integrate into the already-running state exchanges, that 
would probably take six months to develop a new site that would 
be operational. The three folks that built it in two weeks are 
definitely a testament, but to do a fully production instance I 
think would take about six months. To shut it down, to actually 
shut it down and recode would probably take four to six months 
to get the critical concerns out of the way to at least get it 
back up and running an stable.
    The portion around keeping it stable or keeping it up and 
running while introducing it could take years.
    Mr. Bridenstine. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Bridenstine. The gentleman 
from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman. Have any of you all 
assessed on a scale of one to ten the cost of this website with 
the volume of stores, the interaction, the cost per 
participant? In other words, you are going to have--I forget. I 
think they have said 100-something thousand had been on there, 
whatever it is, but versus private industry. From your 
knowledge about those websites and how they have been created 
and produced, on a scale of one to ten, ten being the most 
efficient bang for the buck, what would you give this? We will 
start with Mr. Wright.
    Mr. Wright. Back-of-a-napkin calculation, I mean, it is got 
to be somewhere around a two. Your average cost per user is 
significantly high because you have got few users and you have 
got a lot of money in it.
    Mr. Weber. Right. Got you.
    Dr. Rubin. I haven't had that data to perform a cost 
analysis.
    Mr. Weber. Okay.
    Mr. Kennedy. When you look at the website the 
infrastructure supported, I believe there was a statistic that 
came out that they could handle 600 users per second on the 
site during registration process. So if you look at that 
infrastructure, you look at the amount of money that was spent 
on this, and it was in excess of I believe $600 million? Is 
that correct?
    Mr. Weber. That is huge. Yes.
    Mr. Kennedy. I would give this a one as far as operational 
efficiency and the type of money that was spent on it.
    Mr. Weber. All right. Thank you. And my second--we are 
going to talk projected costs going forward because if it so 
expensive to maintain this thing and they can't hire the right 
people, then Americans' security is going to be at risk.
    So going forward, if there was going to be a maintenance 
contract on maintaining this thing, which I am assuming there 
is, you are going to have to have personnel that are doing 
that. Now, my colleague form Utah said this would be a great 
vulnerability for Chinese cyber terrorists was the word he 
used. But I would submit that there might be some Edward 
Snowdens. They don't have to be in China.
    From what you know, is that system available to disallow 
something like that happening where somebody inside could walk 
out with just tons of information? Yes or no.
    Mr. Wright. Based on what we know, no. Or at least what I 
know.
    Mr. Weber. Right.
    Dr. Rubin. I don't have enough information again about how 
the system is architected to answer that.
    Mr. Weber. Okay.
    Mr. Kennedy. And I don't have enough information on the 
back-end process for that, but it is my understanding no.
    Mr. Weber. I got you. What I wanted to is guarantee a 
platform, but that couldn't happen. So let's go back now. We 
ranked the efficiency on the dollar, but how about on a 
security scale? I think I am going to know this answer, one to 
ten, ten being the most secure, you have got to give this 
abysmal ratings, right?
    Mr. Wright. Based on what we previously said that we would 
not allow it to go. It would have to be a zero.
    Mr. Weber. Absolutely, has to be--okay. Go ahead.
    Dr. Rubin. So I think we have seen a bunch of security 
problems that were easily fixed, and a deeper dive is necessary 
in order to determine where we are on that scale of one to ten.
    Mr. Weber. But versus what you know about the private 
industry----
    Dr. Rubin. There is no doubt that compared to a private 
system that goes live, this system has more problems than you 
would expect to see.
    Mr. Weber. Well, I don't know that that is accurate because 
this is the federal government. We expect a lot of problems.
    And then finally, Mr. Henry Chao I guess is how you say 
that, the Chief Information Officer for the CMS, said that the 
site was no problem. He would recommend it to his sister. I 
don't know, you all probably didn't read that. It is in our 
notes. So I guess this question is for Mr. Kennedy. You are the 
hacker. How long do you think it would take you to get his 
sister's information or do you already have it?
    Mr. Kennedy. I am not going to confirm that second one, but 
no.
    Mr. Weber. Okay.
    Mr. Kennedy. No, I do not have any type of public 
information. But you know, confidently I would say, and this is 
being very generous, I would say within a day to two days.
    Mr. Weber. One to two days you could go in and hack the 
site based on the platform that is there now, which is not 
guaranteeing zero or one level of security, if that is even----
    Mr. Kennedy. Yes, sir, and that is just understanding the 
amount of time it takes to understand an application is where 
the bulk of the one to two days comes in. It is just 
understanding how the infrastructure works, being able to start 
to kind of probe it a bit. It would take about a day or so. I 
could probably, you know--to be honest with you, it would 
probably take a few hours, but I am giving myself two days.
    Mr. Weber. All right. That is great. I mean, that is good 
news and bad news. It is bad news what you are saying it could 
be done, but it is good news is the American public is going to 
know this. So once you learn that system and get into it, then 
you can hack anybody's information really quickly.
    Mr. Kennedy. That is correct. Yes, sir.
    Mr. Weber. Makes me feel more secure.
    Mr. Wright. And sir, I think the biggest danger, too, is 
everybody keeps talking about the data hub. But what concerns 
me about the data hub is it operates as a trusted broker. In 
other words, all these other systems trust the data hub to say 
the transaction is authenticated, it is trustworthy. If that is 
not the case, you have just unintentionally done it similar to 
a Donnie Brasco, introduce somebody in that everybody trusts 
because of the introduction, not because it is actually 
trustworthy.
    Mr. Weber. So not only do we have politicians saying trust 
me, I am from the federal government, now we have computers 
saying it.
    Mr. Wright. Essentially yes. I mean, there's a certain 
level of trust that comes from the data hub.
    Mr. Weber. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber. The gentleman from 
Indiana, Mr. Bucshon, is recognized.
    Mr. Bucshon. Thank you, Mr. Chairman. First of all, I am a 
medical doctor, I was, before coming to Congress, and I want to 
briefly comment on some of the comments that were made about 
personal health information and whether that is profitable or 
not profitable, and I would ask the question would anyone in 
this room want to let everyone in this room know all their 
personal medical information? And I would say that the answer 
to that is no because it is personal. This is about people. 
This is not about profit on medical information.
    Let me give you an example. When you ask people to direct 
donate blood, for example. Say someone is having surgery and 
their family members want to donate blood. Actually 
statistically, the blood from the regular pool is safer than 
having your family donate blood for you. Why is that? The 
reason is is because you don't know what all kinds of health 
problems that your family members have had because they haven't 
told you. And so I would argue this is a personal privacy 
issue, and if there's any chance that people's medical 
information can get out there based on a government website, it 
is not correct.
    The other thing I would like to say is quickly, and then I 
will have a question, is just because other websites of the 
federal government or in the private sector have problems 
doesn't justify this website having problems. I have heard that 
here today, too. Well, this website has been breached and this 
private sector has given up information. That doesn't matter. 
We are not talking about that. We are talking about this 
website, and it doesn't justify failures of this website.
    So with that said, on September 3, 2013, a memo signed by 
the Chief Information Officer, there were at least two open 
high findings for the federally facilitated marketplace, the 
Federal exchanges. The first high finding, although 
substantially redacted, indicates that the threat and risk 
potential is limitless. It indicates corrective action must be 
taken by May 31, 2014. And information on the second high 
finding is completely redacted. It indicates that due date for 
corrective action is February 26, 2015. I think we have 
mentioned that before.
    As cyber security experts, based on these findings, would 
anyone recommend that the federally facilitated marketplace, 
the Federal exchanges, be made publically available?
    Mr. Wright. Yes, sir. That is exactly the same memo I 
referenced earlier, and when the phrase is said the threat and 
risk potential is limitless, I don't know how you accept risk 
based on the fact as you can't quantify the risk.
    Mr. Kennedy. To also address that situation, in the private 
sector, those type of exposures are what we call showstoppers, 
things that would not allow the website to be put into 
production until they actually were remediated, and that would 
be especially ones that never heard the term limitless before 
which would mean that basically access to everything and 
everything that would be part of that infrastructure would be 
my guess. You would not put that into any type of production 
environment or go live with it in any way.
    Mr. Bucshon. Mr. Chairman, if this hasn't been introduced 
in the record--I can't remember if Mr. Wright did that--I would 
like unanimous consent to introduce the memo from CMS into the 
record.
    Chairman Smith. Okay. Without objection, it'll be made a 
part of the record.
    [The information appears in Appendix II]
    Mr. Wright. And if I could add one more point in 
clarification, too, the difference in the private sector versus 
the government is that, gain, it goes back to liability, 
shareholder lawsuits. If a memo like this came out in 
litigation, you would find the firm facing financial ruin 
basically because they knew, they knew they shouldn't have done 
it and they did it anyway. And that is the basis for company 
killing litigation.
    Mr. Bucshon. Dr. Rubin, at this point, could you recommend, 
based on the fact we don't know what the redacted information 
is but that there was a high finding, would you recommend 
opening these up to the public at this point? I think it is a 
similar question that has been asked before about the website. 
But this is specifically related to the exchanges.
    Dr. Rubin. Yeah, I mean before I would answer that 
question, I would want to see the details, the technical 
details of what the problems really are.
    Dr. Bucshon. It is my point these are redacted and not 
publically available, and that is an issue because outside 
people can't assess what the threat is because we have redacted 
information. And maybe since they have released this, they have 
made it public, but I don't think that is the case.
    Mr. Kennedy, is it common--would anyone out there launch a 
website with these types of warnings before corrective action 
is completed? I mean, anybody out there? I mean, would it be 
prudent to do that?
    Mr. Kennedy. I come from very much a programming 
background, one that works with organizations on developing 
software for life cycles and building applications that are 
large like this.
    So what I can say is that it depends on the risk of the 
organization and what they are able to accept. Based off of 
what we have seen and the information that is been publically 
available, I would not know of a company that would release a 
site like this with the functionality and security concerns 
that there were ahead of time.
    Mr. Bucshon. So it would be important for the public to 
know what the concerns were and then you could make a better 
assessment?
    Mr. Kennedy. Absolutely.
    Mr. Bucshon. That is what you are saying? I think that is 
what Dr. Rubin has said also.
    Dr. Rubin. Yeah, I agree. I am sorry. I agree. I think that 
the public should know what the concerns were.
    Mr. Bucshon. Okay.
    Mr. Wright. And just to add one point, sir, a final thing. 
When they establish the advanced encryption standard which 
became the basis for our encryption, that math, those 
algorithms were in the public. They were in the public domain. 
People got to view those, and to this day you can look at all 
the people who submitted things. Bruce Shneer submitted I think 
it was called ``Two Fish.'' You have got the AES. The math is 
public. It was subject to peer review, and if there was any 
issues, it would have been exposed. And that is really--
sunlight is the best thing when you are looking at remediating 
security problems. Expose it, let it be shown and let the 
people weigh in on it who've got the expertise. You will find 
people will crowd source and help you solve the problem.
    Mr. Bucshon. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Dr. Bucshon. The gentlewoman 
from Wyoming, Ms. Lummis, is recognized for her questions.
    Mrs. Lummis. Thank you, Mr. Chairman. Mr. Kennedy, in a 
recent article by Fox News you were quoted as saying if I was 
allowed to attack the website by myself and I had approval to 
go and do it, it would be very simple for me to break into it, 
steal all the information that is in the database, including 
all of your personal information that you use to register for 
those sites, Social Security numbers, everything like that, 
basically that is what you were saying to one of the previous 
Members who was talking about Mr. Chao's sister. You mentioned 
that you'd like to have two days to get in to access her 
information.
    We have also learned today that these systems are 
integrated, that they are talking back and forth, that there's 
integration between HealthCare.gov and the IRS website and 
Homeland Security and others. Would you be able to get into 
HealthCare.gov and then use it to get into the IRS website?
    Mr. Kennedy. Without knowing enough about the 
infrastructure behind it, I can't say yes or no. However, what 
I can say is that as attackers and as hackers break into 
infrastructure, they usually use a conduit, a website, to use a 
trusted connection back to other infrastructure to gain access 
to that back end.
    So without understanding infrastructure, I can't say yes, 
100 percent. But based on the information that we know, you can 
look at the privacy policy on the website itself, it shows who 
it actually interacts with and the type of information it 
sends. If you look at that, it is pretty indicative that you 
could, you know, use that HealthCare.gov as a leaping point and 
kind of a back door into the other agencies, other Federal 
portions of government, like the IRS or DHS. And again, I can't 
say without certainty but it is definitely a common technique 
that a hacker would use to do it. It is called what we call, 
you know, pivoting and further attacking into the 
infrastructure.
    Mrs. Lummis. And gentlemen, based on that information, 
would you have recommended that HealthCare.gov be walled off 
from other federal government databases that have very 
sensitive information?
    Dr. Rubin. Let me address your first question, and then 
I'll address the second question. First, just one 
clarification, that is it is not the IRS website. It is a back-
end database of the IRS that is being accessed. And the way the 
data is being accessed is through this hub where requests are 
being sent. And so if the site were designed with proper 
security, with good security practices and principles, there 
would be a very, very limited interfaced between HealthCare.gov 
and the IRS where the IRS's database responses would be very 
limited in their nature. They could only answer certain queries 
to answer eligibility questions. If the site were designed very 
poorly and the interface was designed poorly, then I think that 
could be open. I don't know what kind of design they use, but 
in my written testimony I talked about focusing on those 
interfaces, keeping them very simple and very basic and using 
the hub simply to query those back-end databases at these other 
sites and get the responses back.
    Mrs. Lummis. Mr. Wright?
    Mr. Wright. I think one of the challenges--and this is why 
I went back and confirmed after Congressman Kennedy said that--
is that you still have to provide this information up front. So 
part of the issue you can get to make the site more secure and 
make it function better is to not put all this overhead on the 
initial transaction because the closer you are to the 
presentation layer to where the user is actually interfacing 
with it means it is easier to get that information to your 
point, not necessarily walled off and playing off what Dr. 
Rubin said, but I would like to push that kind of transaction 
back farther to where I can maintain better security. My 
security perimeter gets smaller. I can defend against things 
better. As opposed to the Great Wall of China, we are trying to 
secure the great fence of China, and instead what I want to do 
is have a smaller, tighter core that I can defend against and 
have that data hub, and those types of transactions happen in a 
smaller, confined area. You can't wall it off because it still 
has to interface, but you can reduce the risk and the threats 
by reducing the amount of waste and the places that to David's 
point an attacker can come in because they will do that. They 
will come in and they will use the same methodologies, the same 
seven-stage terrorism planning cycle that is in the traditional 
world is also used in cyber terrorism.
    Mrs. Lummis. Well, we do know that there are countries that 
hire hackers, governments that hire hackers that attempt to 
hack into information in the United States all the time, and we 
know that some of those government-hired hackers hack for their 
government by day and they hack for hire by night. And so there 
are mercenary hackers out there that will hack for money.
    Mr. Kennedy, are there vulnerabilities that you've not 
identified publically out of fear that the consequences are so 
exploitable that it would be like telling a criminal where you 
hide the spare key to your house?
    Mr. Kennedy. Yes, there is. There are exposures that I have 
identified that are not public.
    Mrs. Lummis. Have you identified them to someone who can 
use them to plug those holes?
    Mr. Kennedy. Yes, I have. Any time that I discover an 
exposure or criticality, it is sent to the appropriate people 
to get addressed and fixed. That is where we come in from the 
responsible disclosure side of doing the right thing.
    Mrs. Lummis. Gentlemen, I really thank you for your 
expertise and your presence here today. Mr. Chairman, I yield 
back.
    Chairman Smith. Thank you, Mrs. Lummis. I would like to 
thank our witnesses today for being here and helping us better 
understand the many privacy and security concerns that have 
been voiced concerning HealthCare.gov. Unfortunately, the 
personal information that has already been entered into 
HealthCare.gov is vulnerable to online criminals and identity 
thieves. This security flaw endangers a large number of 
Americans who already have used the website. President Obama 
has a responsibility to ensure that the personal and financial 
data collected as part of Obamacare is secure. It is clear this 
is not the case.
    There is only one reasonable course of action. Mr. 
President, take down this website.
    That concludes our hearing, and thank you again for 
testifying and we stand adjourned.
    Mr. Wright. Thank you.
    [Whereupon, at 12:35 p.m., the Committee was adjourned.]









                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
